<html>
<title> - VOTER SUPPRESSION IN MINORITY COMMUNITIES: LEARNING FROM THE PAST TO PROTECT OUR FUTURE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





                           VOTER SUPPRESSION 
                        IN MINORITY COMMUNITIES: 
                         LEARNING FROM THE PAST 
                         TO PROTECT OUR FUTURE 

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2020

                               __________

                           Serial No. 116-92

                               __________

      Printed for the use of the Committee on Oversight and Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       Available on: govinfo.gov
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                             _________
                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
39-930                   WASHINGTON : 2020
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Mis6uri               Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Debbie Wasserman Schultz, Florida    Michael Cloud, Texas
John P. Sarbanes, Maryland           Bob Gibbs, Ohio
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Ralph Norman, South Carolina
Robin L. Kelly, Illinois             Chip Roy, Texas
Mark DeSaulnier, California          Carol D. Miller, West Virginia
Brenda L. Lawrence, Michigan         Mark E. Green, Tennessee
Stacey E. Plaskett, Virgin Islands   Kelly Armstrong, North Dakota
Ro Khanna, California                W. Gregory Steube, Florida
Jimmy Gomez, California              Fred Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California
Deb Haaland, New Mexico

                     David Rapallo, Staff Director
                       Russ Anello, Chief Counsel
                          Amy Stratton, Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051 
                      
                             _________
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on February 26, 2020................................     1

                               Witnesses

Mr. Timothy L. Jenkins, Board Member, Teaching for Change, Board 
  Member, Civil Rights Movement Archive, Student Nonviolent 
  Coordinating Committee
    Oral Statement...............................................     6
Ms. Marcia Johnson-Blanco, Co-Director, Voting Rights Project, 
  Lawyers' Committee for Civil Rights Under Law
    Oral Statement...............................................     8
Ms. Diane Nash, Civil Rights Activist, Founding Member, Student 
  Non-Violent Coordinating Committee
    Oral Statement...............................................     9
Rev. Dr. William J. Barber II, President, Repairers of the Breach 
  and Co-Chair, Poor People's Campaign: A National Call for Moral 
  Revivial
    Oral Statement...............................................    13

* The prepared statements for the above witnesses are available 
  at:  docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents listed below are available at: docs.house.gov.

  * A report from the Brennan Center for Justice; submitted by 
  Chairwoman Maloney.

  * Statement of Rep. John Lewis; submitted by Chairwoman 
  Maloney.

  * Heritage Foundation examples of voter fraud; submitted by 
  Rep. Grothman.

  * Letters from: Dickinson Press and Bismark Tribune; submitted 
  by Rep. Armstrong.


 
                           VOTER SUPPRESSION 
                        IN MINORITY COMMUNITIES: 
                         LEARNING FROM THE PAST 
                         TO PROTECT OUR FUTURE  

                              ----------                              


                      Wednesday, February 26, 2020

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 11:10 a.m., in 
room 2154, Rayburn Office Building, Hon. Carolyn Maloney 
[chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Clay, Cooper, 
Connolly, Krishnamoorthi, Raskin, Wasserman Schultz, Sarbanes, 
Welch, DeSaulnier, Plaskett, Khanna, Gomez, Ocasio-Cortez, 
Pressley, Tlaib, Porter, Haaland, Jordan, Foxx, Massie, 
Meadows, Hice, Grothman, Cloud, Gibbs, Higgins, Roy, Miller, 
Green, Armstrong, and Keller.
    Chairwoman Maloney. [Presiding.] Good morning, everyone. 
Without objection, the chair is authorized to declare a recess 
of this committee at any time.
    I now recognize myself for an opening statement.
    Good morning. I thank all of you for being here today. Good 
morning. Today we are examining our Nation's history of voter 
suppression, as well as the obstacles that many minority 
communities continue to face to this day in exercising their 
fundamental right to vote. Tomorrow we will be holding a 
ceremony to honor our dear friend and colleague, and our former 
chairman, Elijah Cummings. We will be renaming this hearing 
room after him and commending everything he stood for. Today's 
hearing is also part of our efforts to honor his legacy. 
Protecting the right to vote one of the most important issues, 
if not the most important issue, he fought for during his 
decades in public service.
    We are holding this hearing in February during Black 
History Month. It was black Americans whose voices were 
stifled, blocked, and silenced for centuries, and it is black 
Americans who are still being disproportionately targeted even 
now in shameful efforts to prevent them from registering to 
vote, purging their names from the voter files, and making it 
harder for them to exercise their rights under the 
Constitution. Last February, Chairman Cummings held a similar 
hearing, one of the very first he called after becoming 
chairman of this committee, and he explained his vision for our 
work. I would like to play a clip from that hearing.
    [Video shown.]
    Chairwoman Maloney. That is a north star that everyone in 
this Nation should agree with.
    On this date 151 years ago, Congress passed the Fifteenth 
Amendment declaring the right of citizens to vote shall not be 
denied on account of race. That was beginning of a long and 
deadly struggle to ensure that all American citizens can cast 
their votes. This year is also the 55th anniversary of the 
Voting Rights Act of 1965, and the 55th anniversary of Bloody 
Sunday when hundreds of peaceful civil rights marchers were 
beaten on the Edmund Pettus Bridge in Selma, Alabama. The 
efforts of civil rights pioneers, some of whom are here with us 
today, helped millions of Americans exercise their right to 
vote.
    Unfortunately, today many states are attacking the right to 
vote using tactics similar to those that civil rights pioneers 
battled for decades. Last year, under Chairman Cummings' 
leadership, and also that of Congressman Raskin, the committee 
launched an investigation of allegations in three key states: 
Georgia, Texas, and Kansas. Today we are releasing some of the 
documents and information we obtained as part of that 
investigation.
    For example, in Georgia, Secretary of State Brian Kemp 
purged more than half a million votes from the rolls and 
blocked the registrations of thousands more, all while running 
for Governor. Emails obtained by the committee show that Mr. 
Kemp and a top campaign aide congratulated each other for 
confusing the public about their illegal voter roll purges. And 
they also gleefully celebrated as they made it harder for 
hundreds of thousands of Americans to vote. They even used 
laughing and smiling emojis in a sickening display of derision.
    We also examined Texas, which threatened thousands of 
innocent Americans with criminal prosecution for voting 
illegally, only to be forced to reverse course when it was 
revealed that many, if not all, were U.S. citizens with every 
right to cast their ballots. Finally, we examined Kansas, which 
moved the one and only polling site in the entire city of Dodge 
City, Kansas, outside the city limits without bothering to 
consult with the local voters. Dodge City has a population of 
more than 25,000, and they consist predominantly of minorities.
    Unfortunately, these are not the only instances of 
discrimination and voter suppression. For example, North 
Carolina passed an extremely restrictive voter ID law, but the 
Fourth Circuit struck it down, ruling that it would target 
African Americans with almost surgical precision. These abuses 
must end, and the House of Representatives has taken action to 
stop them.
    Last year, the House passed two landmark bills to protect 
voting rights. H.R. 1, the For the People Act, would reduce 
barriers to voting through automatic registration, same-day 
voting and registration, and expanded early voting. H.R. 4 
would restore and modernize the Voting Rights Act to protect 
against discriminatory voting practices. Unfortunately, Senator 
Mitch McConnell has refused for months to allow the Senate to 
vote on these bills. Communities across America need to 
mobilize now to protect the right to vote in the upcoming 
elections. Every American can take action today to make sure 
their voter registration is active, to learn about their 
options for early or absentee voting, and to find their polling 
sites.
    I would like to close where I began at our hearing a year 
ago, last February. During that hearing, Chairman Cummings told 
the story about how he sat with his mother on her deathbed, and 
this is what she said to him. And I would like to show this 
moving clip now.
    [Video shown.]
    Chairwoman Maloney. Like his mother, Chairman Cummings has 
now passed on, but his spirit is still here with us in this 
very hearing as he urges us with moral clarity to protect and 
defend the core of our democracy. I want to thank all of you 
for coming today. I want to thank all of our witnesses for 
being here. I look forward to your historic testimony. And I 
now recognize the distinguished ranking member, Mr. Jordan, for 
his opening statement.
    Mr. Jordan. Thank you, Madam Chair, and I want to thank you 
for your kind words about our former chairman, and I would echo 
those sentiments. We all appreciate the work of Chairman 
Cummings over the years and his time in Congress, and his out 
of Congress as well, the great things that he was involved in 
and causes he was involved in and fighting for. And I would 
urge all my colleagues to be here tomorrow afternoon when this 
room will be dedicated to the late chairman.
    I want to also thank you, Chairman Maloney, for calling 
this hearing, and thank you for all our witnesses who are here 
today. The right to vote in free and fair elections is a 
bedrock principle of American democracy. Through various 
constitutional amendments, the right to vote has been expanded 
to all citizens, regardless of race, color, gender, and age 
requirement has been lowered actually to 18 years old. The most 
recent expansion took place in 1986 when Congress passed a law 
allowing U.S. servicemembers to vote while stationed overseas.
    These Federal actions to improve voting rights are 
important, and we must remember that voting has traditionally 
been and should remain a state and local responsibility. Some 
groups argue that voting is too hard, that it is too 
complicated, and that these complications drive voters away. 
However, a recent study contradicts these claims. According to 
the study conducted by the Knight Foundation, only eight 
percent of nonvoters said they did not have time to make it to 
the polls, and only five percent said they did not vote because 
they were not registered. Additionally, only eight percent said 
they did not vote because it was too complicated, and only 
three percent said that changing the registration process would 
actually motivate them to vote. In fact, almost 90 percent of 
voters surveyed by the Knight Foundation said that voting was 
easy.
    As states work to ensure that access to voting is fair, we 
should not forget about threats to election integrity. We must 
ensure that every eligible citizen's vote is counted and that 
votes are not stolen or diluted through voter fraud. Today the 
Democrats are going to try to paint a picture of mass voter 
suppression by releasing 13 cherry-picked documents from over 
1.3 million pages in their months'-long investigation into the 
2018 midterm elections. They are going to say these documents 
show a coordinated attempt to suppress minority votes, but, in 
fact, they do not.
    These documents show little more than election officials 
attempting to ensure honest and secure elections. That is what 
their job is. That is their responsibility. They show these 
officials doing their job by ensuring only citizens are voting, 
by ensuring only eligible voters are on the voter rolls, and by 
taking any allegation of cybercrime seriously. In one of the 
most backward allegations, the Democrats argue that the state 
of Georgia should not have contacted authorities regarding a 
potential cyberattack. They argue that because Georgia did not 
produce proof of the attack to the committee, that the attack 
did not occur. That claim is just ridiculous. The Georgia 
Bureau of Investigation is currently looking into the matter, 
and cybersecurity experts unanimously found that there was an 
attempted breach of the voter rolls.
    The release of these documents is simply a smokescreen to 
distract from serious issues in our elections, like voter 
fraud. In 2018, California falsely registered 23,000 voters, 
including almost 2,000 non-citizens. This is no minor issue. 
Twenty-three thousand votes could have changed the outcome of 
the 2016 Presidential election in Michigan, New Hampshire, 
Wisconsin, or Nevada. In New York, there have been 25 
convictions for voter fraud and related offenses, including 
false registrations and duplicate voting. In Maryland, there 
have been eight voter fraud convictions, and I could go on and 
on.
    Voter fraud is a real issue that needs to be addressed. Any 
discussion about relaxing voter requirements should also 
include how states are going to defend against voter fraud. I 
hope we can discuss this important aspect here today as well. 
Again, I would like to thank all our witnesses being here 
today, and we look forward to your testimony. Thank you, Madam 
Chair, and I yield back, or actually, if it is OK----
    Chairwoman Maloney. Thank you.
    Mr. Jordan [continuing]. I would like to yield to Mr. 
Meadows.
    Chairwoman Maloney. I will now recognize Mr. Meadows to 
speak about our dear friend, Chairman Cummings.
    Mr. Meadows. Thank you, Madam Chair, and thank you for your 
leadership. I want to thank all witnesses for being here and 
for your testimony that you are about to give, but I wanted to 
take just a couple of minutes to talk about my good friend, 
Chairman Cummings. When you get to see a video of his passion 
and his willingness to engage, what comes to my mind the most 
about my good friend, Elijah Cummings, was two words: fairness 
and compassion. Those two words not only were emblematic of a 
friendship that the two of us had, but it was also a 
characteristic of the way that he conducted himself as chairman 
and as ranking member.
    And I had the privilege to serve with him in both of those 
capacities. And he is one that always wanted to make sure the 
person who didn't have a voice had a voice here in Washington, 
DC, and so you being here today certainly highlights that. And 
I want to make sure that we do, because the other thing that he 
was always willing to do was to cut to the chase. Our private 
offices were just diagonal from one another just down the 
hallway here, and I would go in, and being the member with less 
seniority, I would always go to the member with more seniority. 
I would go to his office, and we would sit down, and we would 
have very frank conversations on what legislation could mean, 
what it did mean, and the political ramifications.
    So, here is what I would ask. In the spirit of two words 
from my good friend, effective and efficient, what I would love 
to hear from all the witnesses today are the ways that we can 
be most effective and efficient with legislation to make sure 
that every vote is counted, and every individual has the 
opportunity to vote. So, many times what we do is we try to put 
a big narrative based on real problems, but based on problems 
that may be isolated here or there, and we try to put a big 
narrative on it.
    And what I would ask all of you to do is, in honoring my 
good friend, Elijah Cummings, give specific examples on what 
you think that we could do from a Federal standpoint to help 
address any issue that is discriminatory or that 
disenfranchises any people group. And I thank you, Madam Chair, 
for your leadership, and I look forward to hearing from our 
witnesses. And I yield back.
    Chairwoman Maloney. Thank you. Today I am honored to turn 
to our distinguished colleague from the District of Columbia, 
Congresswoman Eleanor Holmes Norton, to introduce our 
witnesses. Congressman Norton is a civil rights legend in her 
own right. As a young woman, she was a member of the Student 
Nonviolent Coordinating Committee, or SNCC, a civil rights 
organization founded by young student activists, including two 
of our distinguished witnesses, Diane Nash and Timothy Jenkins.
    Congresswoman Norton organized and fought for civil rights 
and human rights as a student as head of the New York City 
Human Rights Commission and as the first woman to chair the 
U.S. Equal Employment Opportunity Commission. She has continued 
to champion these causes here in the United States and 
throughout the world as a lawyer, a scholar, and, since 1991, 
as our colleague in the U.S. House of Representatives. I 
recognize the distinguished representative from the District of 
Columbia.
    Ms. Norton. I thank my good friend, Chairwoman Maloney, for 
her very generous words concerning me, but I thank her, most of 
all, for giving the opportunity to introduce the witnesses 
today. This is normally the work of the chair of the committee. 
Two of these witnesses were directly engaged in work to assure 
that there would be no state obstacles to the right to vote, 
and they must be very proud of how that work has, in fact, 
benefited millions of Americans. They were in the core and the 
thick of the Civil Rights Movement.
    My only regret is that our colleague, John Lewis, who, 
though not a member of this committee, would certainly be here 
today if he could. He, of course, John, of course, was chair of 
the Student Nonviolent Coordinating Committee. And I do want to 
note another of our colleagues is in the audience, Frank Smith, 
also an alumnus of the Student Nonviolent Coordinating 
Committee, whom I first met in Mississippi.
    These witnesses will have only five minutes, which is, of 
course, the rules of the committee, and so I hope, particularly 
the witnesses who can give us perspective on what we have got 
to do now in renewing the Voting Rights Act, can talk about 
their own role so that we can have something to compare what we 
are going through today in voter suppression with what they 
experienced as student activists. Their perspective from that 
period can best inform our work in combatting the obstacles we 
face now in the House in renewing the Voting Rights Act.
    So, I am pleased to introduce our witnesses. They will be 
Reverend Dr. William Barber, the president of Repairers of the 
Breach and co-chair of the Poor People's Campaign; Diane Nash, 
a civil right leader and one of the founding members of the 
Student Nonviolent Coordinating Committee; Tim Jenkins, also my 
law school classmate and a founding member of the Student 
Nonviolent Coordinating Committee. Today he is an attorney and 
an activist, and currently serves on the boards of Teaching for 
Change and the Civil Rights Movement Archive. Finally, Marcia 
Johnson-Blanco is the co-director of the Voting Rights Project 
for the Lawyers' Committee's for Civil Rights Under Law. Thank 
you very much, Madam Chair.
    Chairwoman Maloney. Thank you very much. We had hoped that 
John Lewis would be here and be our lead witness, but I now ask 
unanimous consent to place in the record his statement, so he 
is certainly here with leadership and in spirit.
    Chairwoman Maloney. Thank you, and I will begin now by 
swearing in the witnesses, if you will all please rise and 
raise your right hand.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [A chorus of ayes.]
    Chairwoman Maloney. Let the record show that the witnesses 
answered in the affirmative.
    Thank you, and please be seated. The microphones are 
sensitive, so please pull them to you and speak directly into 
it, and without objection, your written statement will be made 
part of the record. And with that, Mr. Jenkins, you are now 
recognized to provide your testimony.

  STATEMENT OF TIMOTHY L. JENKINS, BOARD MEMBER, TEACHING FOR 
  CHANGE BOARD MEMBER, CIVIL RIGHTS MOVEMENT ARCHIVE, STUDENT 
               NONVIOLENT COORDINATING COMMITTEE

    Mr. Jenkins. The heading for today's hearing is ``Learning 
from the Past to Protect Our Future.'' I would add my subtext 
of ``Righting Today's Echoes of Past Political Exclusion.'' My 
name is Timothy Jenkins, and in the 1960's, I was, as 
mentioned, one of the founding members of the Student 
Nonviolent Coordinating Committee, commonly referred to by its 
initials, SNCC. And I served as its chief lobbyist before the 
U.S. Congress during the tumultuous events surrounding the 
drafting of the ultimate passage of the Voting Rights Act of 
1965. I'm here today to advocate needed additional legislative 
remedies in the face of renewed connivances to undercut the 
historic success of that earlier legislation and, not to 
mention, a legitimate interpretation of the Constitution.
    While I'm here as a SNCC survivor, I do not want America to 
forget the moral depth of that interracial, interfaith trio of 
James Chaney, Andrew Goodman, and Michael Schwerner, who were 
of the SNCC members' number, who were murdered in 1964 in 
Philadelphia, Mississippi while working as unpaid volunteers 
seeking to enable black citizens to have the right to vote. We, 
the surviving members of the Student Nonviolent Coordinating 
Committee, find that it is still our vital duty now, just as it 
was when we were formed in 1960, to never allow America to 
falter in her commitment for the equal protection of all 
citizens. We have staked our lives based on our faith that this 
country must uphold the intentions to continuously strive to 
form a more perfect union and establish justice.
    The loss of Chaney, Goodman, and Schwerner is a grave 
reminder of the atrocities that we suffered when we, the 
people, were allowed to refer to some rather than all. In the 
South, our tactics for expanding voter registration among 
minorities and challenging historic acts of voter suppression 
proved to be especially fruitful when a proposed provision 
offered in our 1963 legislative testimony was enacted in 
Section 5 of the Voting Rights Act of 1965. I would think it 
useful for members of the committee to look at the testimony 
that we submitted in 1964 that gives in some 100 pages more 
than I can give in the five minutes that I have today, because 
in that testimony, it enumerates graphically all of the kinds 
of abuses that we went through to try and get people registered 
to vote, which are now not part of our current dialog.
    I urge those of you who have the energy to look at the 
legislative history in the congressional Record of that 
testimony and the invitation that was given to us by Emanuel 
Celler, who was chairman of the Judiciary Committee, and our 
testimony was submitted before the Judiciary Committee. This 
provision has, since in our testimony in the Voting Rights Act 
of 1965, been gutted by the Supreme Court's decision in Shelby 
v. Holder in the year 2013, a ruling based on the false 
contention that the prevalence of discrimination in this 
country is outdated.
    In 1963, Robert Moses joined with me and Charles Sherrod to 
describe in our testimony the immense and intense obstacles to 
African Americans and how we had to mobilize the community to 
encounter and counteract those abuses. More recently, in both 
Georgia and Mississippi, through private and public measures of 
intimidation, African Americans were purged from voting. There 
is proof that such discrimination and discriminatory procedures 
are still at large today, as evident in Georgia's recent 
removal of 100,000 names from the rolls and rapid closure of 
polling locations in Mississippi. Although the forms have 
shifted, echoes of the past, exclusion, still haunt the 
present, and will persist in plaguing the future if we do not 
mend the legislative cracks in our system that divide us.
    If Congress believes that voting is a fundamental right of 
every U.S. citizen, it is now the responsibility of Congress to 
enact franchise for all people. This is a not a question of the 
ability of Congress, but the willingness to adopt and enforce 
laws that will safeguard minorities against any exploitations 
pursued by tyrannical majorities at the local level. In 1787, 
when confronted with the question of whether we were going to 
have a monarchy or whether we were going to have a democracy, 
Benjamin Franklin responded, ``It will be a republic if you can 
keep it.''
    Unfortunately, centuries later, in our year 2020, we have 
yet to demonstrate a republic that is genuinely representative 
and exemplified by its unequivocal protection of fundamental 
rights. The prime example is the fact that the crusade against 
voter fraud is more propagating our legislative initiatives 
than the facts. The phenomenon that is providing adequate proof 
of existence still does not exist. According to election 
experts and Members of Congress themselves, individuals are 
more likely to be struck by lightening than to commit in-person 
voter fraud, but in-person voter fraud seems to be the only 
focus of today's actions that are masking as voter protection.
    Due to this lack of statistical evidence to warrant the 
burgeoning of states enforcing strict signature requirements 
and photo IDs, the American people must question the purpose 
and implications of these laws. Through the authority allowed 
by Shelby County v. Holder, the other approaches in voter 
suppression, racial minority groups, disabled, low-income, and 
elderly individuals are being eliminated from our political 
system at an alarming rate. The frequency of these different 
actions is something that requires major initiatives.
    When the Constitution was originally adopted, the use of 
the words ``we the people'' was done, but it did not include 
blacks, women, indigenous people, or those without property as 
an equally entitled----
    Chairwoman Maloney. Can you summarize? You are well over 
your time, and close? We have to keep to our schedule.
    Mr. Jenkins. I have submitted to the record the written 
testimony, and one of the things that I would like to have in 
the dialog that we pursue is an opportunity to enlarge upon the 
beginnings of what we are saying because there's an African 
expression that a river that forgets its source dries up. We 
the people of the day before yesterday want to talk to the 
people who are the people of tomorrow in our testimony.
    Chairwoman Maloney. Thank you. Ms. Johnson-Blanco, you are 
now recognized for your testimony.

STATEMENT OF MARCIA JOHNSON-BLANCO, CO-DIRECTOR, VOTING RIGHTS 
     PROJECT, LAWYERS' COMMITTEE FOR CIVIL RIGHTS UNDER LAW

    Ms. Johnson-Blanco. Chairwoman Maloney, Ranking Member 
Jordan, and members of the Committee on Oversight and Reform, 
thank you for the opportunity to provide testimony regarding 
voter suppression in minority communities today. My name is 
Marcia Johnson-Blanco, and I co-direct the Voting Rights 
Project of the Lawyers' Committee for Civil Rights Under Law, 
where I oversee the project's programmatic and advocacy 
portfolio.
    Almost seven years after the Shelby County v. Holder 
decision, which nullified a major section, Section 5, of the 
Voting Rights Act, we are in danger of undermining the progress 
made by that act. The Lawyers' Committee is a national civil 
rights organization created at the request of President John F. 
Kennedy in 1963 to mobilize the private bar to address issues 
of racial discrimination. From the beginning, a major part of 
our work has been combatting voting discrimination.
    In striking the formula that determined which jurisdictions 
with a history of discrimination had to submit voting changes, 
the Supreme Court conceded that voting discrimination still 
exists--no one doubts that--even at the time it was admonishing 
this body that the formula should be based on current 
conditions. Well, current conditions showing voting 
discrimination existed at the time of the Shelby decision and 
continue to exist today. Examples of discrimination, which 
disproportionately impact the ability of minority voters to 
vote, are: using procedures like exact match not to process 
voter registration applications; challenging and removing 
voters from the rolls; cuts to early voting; restrictive voter 
ID requirements; closure and consolidation of polling places; 
excessive voter purges; aggressive rejection of absentee 
ballots; violation of laws requiring assistance to voters with 
limited English proficiency; and barriers to the vote for 
returning citizens upon completion of their sentence.
    Significantly, the Department of Justice has been largely 
absent in the face of this voting discrimination. Since the 
Shelby County decision, the Justice Department has filed three 
suits against voting changes that discriminate and that would 
have been precleared under Section 5 of the Voting Rights Act. 
By contrast, the Lawyers' Committee has brought 14 cases 
involving voting changes, 11 of which were in jurisdictions 
formerly covered by Section 5 of the Voting Rights Act.
    In short, efforts to block access to the ballot continue. 
Findings of discrimination that were present when the Supreme 
Court decided the Shelby County decision illustrate that 
current conditions exist and do require not only the full 
protections of the Voting Rights Act, but robust enforcement of 
all Federal laws. The Department of Justice needs to do more. 
It needs to be more of a partner with organizations like the 
Lawyers' Committee, who fight against voting discrimination.
    And it is important that Congress act to ensure that there 
is no backsliding after a many-decade trajectory of passing 
laws to ensure the promise of our democracy that all eligible 
citizens have access to the ballot. This was begun with passage 
of the For the People Act, H.R. 1,and the Voting Rights 
Advancement Act by this body, and this important work must 
continue to ensure that we don't backslide, and that all 
eligible voters have access to the ballot, and that their votes 
will be counted. Thank you.
    Chairwoman Maloney. Thank you. Ms. Nash, you are now 
recognized for five minutes.

  STATEMENT OF DIANE NASH, CIVIL RIGHTS ACTIVIST AND FOUNDING 
       MEMBER, STUDENT NONVIOLENT COORDINATING COMMITTEE

    Ms. Nash. Chairwoman Maloney, Ranking Member Jordan, 
members of the committee, fellow citizens who are present, I 
want to begin by acknowledging the work of Reverend James 
Bevel. He was my former husband who is now deceased. James and 
I were partners in our work on the Selma right to vote 
movement, which was one of the major efforts that led to 
passage of the Voting Rights Act of 1965. Our son, Douglass 
Bevel, is present today and contributed to the forming of my 
statements to this committee.
    The letter from Chairwoman Maloney inviting me to testify 
today said, ``The hearing will examine current barriers 
Americans, especially those in minority communities, face in 
exercising the right to vote, and lessons from the Civil Rights 
Movement about how we can overcome these barriers to ensure the 
2020 election is free and fair.'' Black voters and many non-
black voters are in a worse place now than we were when the 
Voting Rights Act was passed in 1965. Then we did not have 
Citizens United. Citizens who can't afford to make campaign 
contributions and those cannot afford to make large 
contributions do not have parity with wealthier voters. We need 
to establish one person-one vote.
    Progress had been made with the signing of the Voting 
Rights Act of 1965. I believe that Supreme Court Justices 
Scalia, Kennedy, Thomas, Alito, and Roberts, who voted to gut 
the Voting Rights Act, knew that removing the provision that 
required states to receive Federal approval for changes in 
voting procedures would result in the curtailing of voting 
rights for minorities. I do not believe for one second that 
they really though the provision was no longer needed, as 
Justice Roberts wrote. We knew the result would be 
gerrymandering and voter suppression, and those five justices 
knew it also because they are as smart as you and I. So, five 
justices of the U.S. Supreme Court suppressed voting rights and 
undermined democracy deliberately.
    Sometimes those opposed to descendants of enslaved Africans 
having equal rights undo progress that has been made, and civil 
rights organizations spend years working to recover progress 
that was unnecessarily rolled back. They give us a hamster 
wheel on which to run. James Chaney, Andrew Goodman, Michael 
Schwerner, Jimmie Lee Jackson, Viola Liuzzo, Reverend James 
Reed, and others' lives were taken. People were beaten into 
unconsciousness. People were beaten and permanently injured, 
fired from jobs, and families were evicted from their homes in 
order to obtain the right to vote. I do not appreciate what 
those five justices did.
    It's not the first time. In 1857, the U.S. Supreme Court 
Chief Justice Roger Taney, who wrote for the majority, wrote 
that the Negro had ``no rights which the white man was bound to 
respect.'' Legislation to restore measures lost when the 
Supreme Court gutted the Voting Rights Act is needed, but it is 
not enough. To stop there would be to climb onto the hamster 
wheel. We need legislation to get money out of political 
campaigns and have government funding of political campaigns. 
We need to abolish the Electoral College. Political parties 
need to eliminate superdelegates. All these exist because some 
citizens try to gain advantage and have more power than other 
citizens. We need paper ballots so that the vote totals can be 
documented.
    If we expect foreign countries to respect our democracy and 
not meddle in our elections, we need to stop interfering in 
their elections. We need to stop with regime change when a 
country chooses the government that the United States 
administration doesn't like. ``You reap what you sow,'' 
``chickens come home to roost,'' ``what goes around comes 
around'' are proverbs that have come about over time because 
they contain truth and wisdom. How would we like it if another 
country did not approve of a President we elected and they 
proceeded to bomb our country and install someone acceptable to 
them as head of our government? Regime change.
    You have to practice fairness yourself, not just when you 
are being treated unfairly. We should all be constantly looking 
for unfairness and trying to correct it. Some examples of 
unfairness that I want to cite are, I think that at the 
beginning of the primary season during the first couple of 
debates, all candidates should be given equal time to speak. 
Since television is how most people become familiar with 
candidates and what they stand for, networks should have to 
give equal time to candidates, at least for a reasonable period 
at the beginning of the primary season. Networks should not be 
allowed to usurp the function of voters by attempting to 
influence the outcome of elections by featuring some candidates 
and ignoring others, especially early in the process.
    When I received the invitation to testify before your 
committee today, I decided that if I could make a contribution, 
even a small one, toward stopping the slide of our country away 
from democracy and toward authoritarianism, it would be well 
worth to travel here today. Forces that want to send the United 
States of America into an authoritarian government control the 
presidency, the Department of Justice, the majority of the 
Senate, and the majority of the Supreme Court. Even if he loses 
the election of November 2020, I cannot envision President 
Trump making a concession speech. Rather, I can only believe 
that he is likely to say that the election was unfair and that, 
in fact, he won. My counsel is that you should decide now 
exactly and specifically, key words are ``exactly'' and 
``specifically,'' who will remove him from the presidency 
should that scenario occur. Don't be caught at the time trying 
to decide who's going to remove him.
    Just like the intelligence apparatus is being reshaped, we 
should assume that similar efforts are going on in the 
military. When people in the 1960's were risking our lives to 
get the right to vote, we really thought that if we got a 
number of blacks and some right-intentioned non-blacks in 
political positions, the lives of black people as a whole would 
be improved. What we didn't see coming was that individuals 
would be elected to office and would consider their positions 
their personal jobs instead of representing their constituents, 
and that many would be more concerned with being elected for 
additional terms instead of representing to the best of their 
ability their constituents. The Civil Rights Movement in the 
southern United States followed many of Mohandas Gandhi's 
teachings. Being truthful was one of his most basic teaching. 
When a person or a country has gotten off the path, truth will 
lead one back to a better direction. One of the principles of 
nonviolence is that it is a mistake to cooperate with wrong 
things.
    Some examples of what I think were mistakes. About a year 
before President Obama's term was over, the Senate refused to 
consider the President's appointment for the Supreme Court. 
Republicans were allowed to get away with that. Democrats were 
fond of saying no one is above the law, yet when persons 
ignored subpoenas----
    Chairwoman Maloney. Ms. Nash, your time is well past. Can 
we tie it up now?
    Ms. Nash. I will just be a few more minutes.
    Chairwoman Maloney. OK. Great. OK.
    Ms. Nash. When persons ignored subpoenaed issued by the 
House of Representatives, they were allowed to be above the 
law. Violators should've been treated like most Americans are 
treated if we ignore lawful subpoenas. Marshals should've 
arrested them and court challenges should be worried about 
later. When Brett Kavanaugh's nomination for the Supreme Court 
was in question and only a sham investigation took place, he 
was allowed to become a justice. When witnesses and documents 
were denied as evidence in the impeachment trial, that was 
allowed. The government should've been shut down until all the 
documents and witnesses you wanted were produced. You should 
still shut it down until you get the documents and witnesses 
you want. They were necessary in order to have a fair trial. 
Now they are necessary----
    Chairwoman Maloney. I want to remind you that your written 
testimony will be made part of the permanent record, and we are 
now almost at 10 minutes when your time allotted was five 
minutes.
    Ms. Nash. Chairwoman Maloney, with deep respect, before I 
left Chicago, I sent a copy of my statement, told the staff how 
long it would be, and told them if I would not be allowed to 
finish the statement, I wouldn't come.
    Chairwoman Maloney. OK. All right. Well, thank you for 
making that point. OK.
    Ms. Nash. So, I really would----
    Chairwoman Maloney. Pleas continue with your statement.
    Ms. Nash. Thank you.
    Chairwoman Maloney. OK.
    Ms. Nash. All right. They were necessary in order to have a 
fair trial. Now those documents and witnesses are necessary for 
voters to have the information we need in order to cast 
informed votes in November.
    The House of Representatives has more power than you've 
been willing to use. You can stop funding certain items. Be 
proportional. Smaller issues require stringent measures. Very 
important matters require serious responses. What are you 
putting up with now? Is the Senate refusing to act on bills 
you've sent them? Are some of those bills designed to protect 
our elections, including the election of November 2020? You can 
stop cooperating until what you need to have happen happens. To 
persons who are fired or resigned from this Administration, 
please do not go away quietly. Speak up. Hold a press 
conference. Tell the voters what is happening. We need to know 
so that we can make informed choices.
    When you're dealing with people like those in the current 
Administration, who are willing to be unlawful and who 
disregard the Constitution, who will take and promptly violate 
oaths, you have to be as bold as they. You teach people how to 
treat you, as Dr. Phil says. Democracy and the republic are 
being assaulted. The democratic elements in the government and 
we citizens had better begin to act accordingly. Our 
grandchildren and their progeny are depending on us not to 
allow the republic to be lost on our watch.
    I was coordinator of the Freedom Rides to desegregate 
interstate bus travel in 1961. Before they boarded the buses, 
several freedom riders gave me envelopes that they asked me to 
mail in the event of their deaths. The founding fathers and 
mothers took up arms against the king. If they had lost the 
Revolutionary War, they would've been executed. It took work 
and sacrifice and courage to establish this republic. Keeping 
this profound gift, the republic they obtained for us, will 
continue take work and sacrifice and courage.
    Like Irving Berlin, my prayer for our country is that the 
Creator will stand beside her and guide her through the night 
with a light from above. God bless the United States of America 
and all the people of this planet.
    Chairwoman Maloney. Thank you. And Reverend Barber, mm-hmm.

   STATEMENT OF REV. DOC. WILLIAM J. BARBER, II, PRESIDENT, 
REPAIRERS OF THE BREACH, AND CO-CHAIR, POOR PEOPLE'S CAMPAIGN: 
               A NATIONAL CALL FOR MORAL REVIVAL

    Reverend Barber. We are sitting in the presence of a mother 
of the Movement, and in my tradition, we applaud a mother for 
her courage.
    [Applause.]
    Reverend Barber. Chairman Maloney, may I stand because of 
an ADA issue?
    Chairwoman Maloney. Absolutely.
    Reverend Barber. I want to thank you, Chairwoman, and 
Ranking Member, and all of the congresspersons that are here. I 
have sent in extensive written words to this committee that 
have been entered into the record. I want to say that even from 
recent history and the continuing reality of voter suppression, 
there are some things we must know. And I come from North 
Carolina, where we have seen the worst attacks since June 25 of 
2013.
    What is it that we now know? We know when racist 
gerrymandering plans can be implemented without proper 
preclearance, state legislatures in the South and other places 
will justify and will draw racist plans that create 
supermajorities that are, as one judge has said, 
unconstitutionally constituted and disenfranchise black, brown, 
native, and poor voters. We know that after these 
unconstitutionally constituted state legislatures and 
congressional delegations are seated, they will lie about voter 
fraud as a pretext for passing racist voter suppression laws 
targeted at black, brown, and poor voters. And we know this 
experience, especially in the South, where the South represents 
170 of the 270 electoral votes to win the presidency.
    We call this, and the courts have called this, surgical 
racism. For instance, in North Carolina, after we had won same-
day registration, early voting, and registration for 17-year-
olds, extremists in the state legislature passed an omnibus 
voter suppression bill as soon as the Shelby decision came 
down, stripping the Voting Rights Act of its preclearance 
requirements. One legislator said, ``Now that the headache has 
been removed, we can begin,'' and they started rolling back the 
voter extensions that voters had used in the previous two 
election cycles. It took us four years in courts, over 1,000 
arrests, for North Carolina NAACP, Moral Monday, Forward 
Together, and others to turn back what should have never been 
passed by the state legislature in the first place, because, as 
a Federal court said, and the Supreme Court affirmed, it was 
surgical and intentional racism.
    That is why I wish my good friend, Mr. Meadows, was still 
here from North Carolina, I believe, because I wanted to ask 
him to truly be a friend to the friend he claims in Elijah 
Cummings and support his vision to deal with voter suppression, 
because if you can't support truth, friendship is really 
questionable. Since 2013, Senate Leader McConnell and Speakers 
Boehner and Ryan worked to keep Congress from fixing the Voting 
Rights Act. Today is 2,437 days that Republicans in Congress 
have refused to fix the Voting Rights Act, and some Democrats 
have refused to make this a central issue in campaign politics 
and push hard enough to expose what it going on.
    Strom Thurmond filibustered the Civil Rights Act of 1957 
for one day, and we called him a racist. The Congress has 
refused to fix the Voting Rights Act for 2,437 days today. We 
don't know all that Russia did, but we know what voter 
suppression has done. Let me be clear. The politicians in state 
houses and congressional delegations who benefit from racist 
voter suppression share a policy agenda when they get in 
office. They have worked as a bloc to attack anti-poverty 
measures, attack expanding access to healthcare. They vote 
against living wages. They block policies that hurt poor white 
people the most since the total number of poor and low-wealth 
whites is 66 million in raw numbers, and 26 million are black 
people. They fight against earned income tax and long-term 
unemployment.
    This is the great and ugly irony of racist voter 
suppression. The very people who use it to attain power, once 
they get that power, they exercise it in ways that hurt mostly 
poor white people, which Dr. King spoke of at the end of the 
Selma to Montgomery march, that every time there is the 
possibility for poor whites and poor blacks to come together 
and vote and transition the society, we always have these 
efforts. Black, brown people in percentages are poorer, but in 
raw numbers, more are white. It gives us an impoverished 
democracy, what we're seeing. And it is nothing more than James 
Crow, Esquire, in a suit perpetrating as a racist in a suit 
rather than a sheet.
    So, the Poor People's Campaign: A National Call for Moral 
Revival, has identified the following necessary investments in 
democracy and equal protection under the law, which we believe 
are inextricably interlinked morally and constitutionally. No. 
1, we demand the immediate full restoration and expansion of 
the Voting Rights Act with a formula coverage--hear me, 
Democrats--with a formula coverage that ensures coverage and 
reinstates preclearance, at a minimum, to the formerly covered 
states and jurisdictions, and an end to racist gerrymandering 
and redistricting. And we call for early registration of 17-
year-olds, automatic registration at the age of 18, early 
voting in every state, same-day registration, the enactment of 
Election Day as a holiday, and a verifiable paper record.
    We demand the right to vote for the currently and formerly 
incarcerated. We demand that. We also demand adequate funding 
for polling places to accommodate full participation in the 
electorate. We demand statehood, and voting rights, and 
representation for the residents of Washington, DC. We demand 
the reversal of state laws preempting local governments from 
passing minimum wage increases and the removal of emergency 
financial management positions that are unaccountable to the 
democratic process.
    We demand that first-nation Native Americans and Alaska 
Native people retain their tribal recognition as nations, not 
races, to make substantive claims to their sovereignty and have 
full access to the ballot. We demand a clear and just 
immigration system that strengthens our democracy through the 
broad participation of everyone in this country. This includes 
providing a timely citizenship process that guarantees the 
right to vote. It also requires protecting immigrants' 
abilities to organize for their rights in the workplace and 
their communities without fear of retribution, detention, or 
deportation. We demand equality and safety of all persons 
regardless of sexual orientation and gender identity, and we 
demand equal treatment and accessible housing, healthcare, 
public transportation, and adequate income and services for 
people with disabilities.
    We call for a full televised debate on voting rights, and 
we declare that voter suppression is sin. We do not give voting 
rights to parakeets, puppies, and pets. We only give it to 
citizens who are 18 years and older, so to suppress the vote is 
to, in fact, suggest that you have entered a God space and you 
can determine other people's reality. And to suppress the vote 
is to suggest that other people do not have the same Imago Dei, 
the image of God, in you.
    Suppressing the vote is a form of political and theological 
idolatry and sin, and it has no place in this democracy. And on 
this Ash Wednesday, I call on those who have fought against 
right to vote, and have lied about voter fraud, and who have 
pushed voter suppression, and who have smiled smirkingly at it, 
repent. Repent, for the Bible says, ``Whoa unto those who 
legislate evil and rob the poor of their rights and make women 
and children their prey.''
    [Applause.]
    Chairwoman Maloney. Thank you. I now recognize myself for 
five minutes for questions. Ms. Johnson-Blanco, the Voting 
Rights Act of 1965 helped put an end to many of these abuses 
that you all testified to, but recently we have seen renewed 
efforts to suppress votes through voter purges, poll closures, 
and other tactics. Our committee has been investigating many of 
these abuses. For example, in Georgia, the state purged more 
than 500,000 citizens from the voter rolls before the 2018 
elections. In Texas, the state issued an advisory claiming 
erroneously that thousands of people had illegally voted and 
threatened these individuals with criminal prosecutions. And in 
Dodge City, Kansas, a majority Latino city, local officials 
moved the only polling place outside the city and gave the 
wrong address to some new voters. So, my question to you, Mrs. 
Johnson-Blanco, what impact do these tactics have on minority 
communities?
    Ms. Johnson-Blanco. In short, they keep----
    Chairwoman Maloney. Put on your microphone.
    Ms. Johnson-Blanco. Yes, Chairwoman. In short, they keep a 
substantial number of minority voters from being able to access 
the ballot. These laws that have been passed, the way they have 
been implemented have a disproportionate impact on minority 
voters, and our litigation has shown that to be true. When, for 
example, Gwinnett County in Georgia aggressively rejected 
absentee ballots, it was disproportionately against minority 
voters. The exact match that Georgia implemented that did not 
allow for voter registration was disproportionately implemented 
against minority voters. So, when these laws are passed, what 
they do is, in essence, keep minority voters from the ballot.
    Chairwoman Maloney. And also, Ms. Johnson-Blanco, 
proponents of new barriers to voting often claim that they are 
trying to stop ``voter fraud.'' Is this a legitimate 
explanation of these actions?
    Ms. Johnson-Blanco. No, it isn't because, in essence, what 
they are doing is keeping eligible voters from the ballot. In 
our Texas photo ID case, for example, our records show that 
there were 600,000 registered voters who didn't have the 
restricted voter IDs that Texas required. So, what is isolated 
instances of voter fraud cannot be used to keep thousands of 
legitimate voters from the ballot.
    Chairwoman Maloney. Thank you. And, Reverend Barber, just 
like the poll taxes and literacy tests from 50 years ago, 
today's voter suppression tactics are race neutral on their 
face, but they disproportionately impact black and brown 
communities. What do you believe is motivating the states that 
are aggressively pursuing efforts to limit the right to vote? 
Reverend Barber.
    Reverend Barber. Well, sometimes----
    Chairwoman Maloney. Yes, Reverend Barber.
    Reverend Barber. Sometimes they seem to be on their face, 
but the courts have said it is intentional. We were actually 
told not to try not to prove intentional racism, but we knew it 
was intentional and we proved in the court. We also know that 
the demographic shifts are driving this because we know right 
now that if you register two to ten percent of poor and low-
wealth people who are black and brown and white, in the South 
particularly, and you get 30 percent unregistered black voters 
to vote, you can fundamentally change all of the southern 
states. And we know the battleground is those 170 electoral 
votes that are in just 14 states in these United States.
    We also noted in our state, we saw a massive increase in 
voting after we won same-day registration and early voting. The 
first thing this unconstitutionally constituted legislature did 
was they went after same-day registration and early voting. I 
want this committee to hear this. They did not stop a program 
to extend the vote from being implemented. They took a program 
that voters had already used in two election cycles that was 
critical in 2008. They rolled back what citizens had actually 
used for two election cycles because of the fear of the fusion 
coalition of black and brown and white people that can come 
together when we have access to the ballot.
    Chairwoman Maloney. Thank you. My time has expired. I am 
grateful to all of the witnesses for your tireless work, your 
dedication to protecting the right to vote. And I now recognize 
the gentleman, Mr. Hice from Georgia, for as much time as he 
needs because many people spoke past their time. Mr. Hice?
    Mr. Hice. Thank you, Madam Chair. I appreciate that, and I 
will stay within my limits. I thank each of the witnesses here 
and for this hearing, the purpose of which is to make sure that 
there is no voter suppression and learn more about that, and 
also voter fraud. The thing is we want to maintain voter 
integrity in this country. And I want to speak specifically to 
some issues in Georgia that have come up that are misleading 
and just wrong, and I want to correct the record on some of 
those things.
    The fact is it has never been easier to register or to vote 
in the state of Georgia. In fact, this last election, all 
demographic groups had record number turnouts, and that is 
because of the efforts that have taken place in Georgia to make 
voter registration and voting easier and more accessible to 
everyone. This last election, midterm 2018, had 55 percent of 
eligible voters in Georgia actually voted. That is a record, 
and it is in every demographic category, compared to 2016 or 
2014 of 38 percent, and in 2010, it was 40 percent, and now 55 
percent turnout. That is 17 percent better than the previous 
midterm election.
    And I am proud that within those statistics, that the 
turnout of minority groups across the board dramatically 
increased compared to 2014. African American turnout, for 
example, increased 32-and-a-half percent. Hispanics and Asian 
Americans in the 90-percentile increased. These are drastic 
increases because of the effort not to suppress, but to get 
voters of all demographic groups to participate.
    And I know that we went to great lengths in Georgia. In 
fact, in 2016 we started the automated voter registration, and 
since 2016 with Georgia doing it, many other states have 
participated as well. But, again, it has never been easier in 
Georgia for people to register. It has never been easier in 
Georgia for people to actually vote. And yet we hear examples 
that have come up.
    I heard mentioned that some 53,000 Georgians were not 
allowed to register. Their applications were placed on hold by 
the Secretary of state's office. That is just wrong. In the 
first place, processing of voter registration in the state of 
Georgia is not even handled by the Secretary of State. It is 
handled by the local counties. It is on the county level where 
those voter registrations are taking place. If someone in a 
county had a problem with their voter registration, they 
received a letter from their county, not from the Secretary of 
State. And in that letter from their county, they were told 
that their status is pending. They were told why it is pending. 
They were told what needs to be done to correct the problem.
    And then it may surprise some in this room, they were told 
in the letter that they could still vote. Yes, they could still 
vote. They had to show up, and they were also told the location 
of where to go. They would get a ballot just like everyone 
else, but they had to come with a voter ID just like everyone 
else in the state of Georgia has to show up with, but they 
could still vote. That is reasonable. Every effort in the world 
was made to let them know what the problem was, how to correct 
it, and where to still go vote, and that they were allowed to 
vote. And the allegations here are just not true.
    Some other things. Comments were made that county and state 
officials closed more than 200 polling places. Again, that is 
very misleading. In the first place, again, state officials 
cannot close polling locations. That, again, is something that 
is done on the county level. But second, our most populated 
counties and areas in the state of Georgia added polling 
locations, and that has been taking place since 2012. And 
third, there was notable increase of individuals voting early. 
This is extremely important. Since 2014, Georgia has seen a 125 
percent increase in early voting, and, again, it is counties 
that handle the polling and so forth, not the state.
    So, there was another allegation that hundreds of voting 
machines were missing. Well, the truth is that was because a 
Federal judge ordered those hundreds of voting machines held up 
because of a lawsuit that was taking place by some activists, 
and the three counties involved in that urged the judge to 
reconsider because it could affect voting, but repeatedly, the 
plaintiffs' counsels refused to cooperate.
    So, Madam chair, I see I have gone over by 30 seconds. I 
said I wouldn't do that. I appreciate your indulgence for a 
moment with that, but I did want to set some of the record 
straight as it relates to Georgia, and with that, I yield back.
    Chairwoman Maloney. I thank the gentleman. The gentlewoman 
from the District of Columbia, Ms. Norton, is recognized for 
five minutes.
    Ms. Norton. It was interesting to hear the gentleman from 
Georgia recount the ways, the many ways, in which Georgia has 
succeeded in ridding the state of some of its practices. We 
know that some of that is true because Democrats took back this 
House last year. That would not have happened if many African 
Americans hadn't insisted on overcoming barriers, barriers like 
purging. And I just want to cite for the gentleman from Georgia 
the extraordinary number of voters in his state, half a 
million, who were purged, and most of them were people of 
color.
    I also looked at other states to try to have something to 
compare Georgia with, and that is why my question goes to 
purging. In Ohio, which is not under the Voting Rights Act, 
almost as many, 460,000; in Wisconsin, 200,000 purged. So, I 
would go first to Ms. Johnson-Blanco. I am trying to understand 
what the response is to some purging, what purging means that 
may be legitimate and may occur in northern and southern 
states, and whether or not we are meeting purging that may be a 
violation of the Voting Rights Act. So, would you clarify for 
us what would be legitimate purging and the kinds of purging 
when you get half a million voters purged surely involves some 
errors or some intent?
    Ms. Johnson-Blanco. Yes, Congresswoman Norton, I think we 
should say that there is a difference between list maintenance 
and voter purging. Under the National Voter Registration Act, 
election officials are allowed to remove people who have died, 
who have moved from the voting rolls, but there is a process. 
They must first reach out to those voters and ensure that they 
are no longer in their residence, resident in their 
jurisdiction before removing them. And then, two Federal 
election cycles have to pass.
    Ms. Norton. Well, do some of them encounter these delays 
when they come to vote? In other words, if you have been 
purged, you first learn about it and you have cast your vote--
--
    Ms. Johnson-Blanco. Right.
    Ms. Norton [continuing]. It is pretty hard. You are going 
to be delayed. Are you going to come back to vote? Would you 
describe that kind of delay?
    Ms. Johnson-Blanco. Yes. If the notice isn't given, then 
voters are showing up to vote and then finding they are not on 
the rolls. This happened in New York, for example, where voters 
were removed from the voting rolls after they hadn't voted in 
the past election in violation of the National Voter 
Registration Act. In Georgia, in Lawrence County we had 
situations where because a voter was challenged, and Hancock 
County because a voter was challenged. They were removed from 
the rolls in violation of the National Voter Registration Act.
    So, there is a process for legitimately removing voters who 
are no longer eligible to vote in a jurisdiction, but when that 
is not done, that is where we see purges. And the study by the 
Brennan Center for Justice has shown that these voter purges 
are happening disproportionately in formerly covered 
jurisdictions.
    Ms. Norton. That clarification is important because purges 
that result in a person having to leave the voting place and 
come again, it seems to me, ought to be disallowed under our 
bill, Madam Chair, so that we do not, in fact, say you got to 
come to the polls two or three times in order to finally be 
able to vote. So, we are looking for ways to make sure the 
Voting Rights Act, in fact, is relevant to today's practices. 
Ms. Nash, could I ask you to compare the kind of voting 
suppression you encountered as a young person and the kind of 
voting suppression that the witnesses have testified to today? 
Are there any similarities?
    Ms. Nash. Yes, Congresswoman----
    Chairwoman Maloney. Please turn on your mic. Turn on your 
mic.
    Ms. Nash. OK. Yes, both voter curtailment in the Jim Crow 
era and now are often based on white supremacy and 
discrimination against minorities. Even back then, we were 
never told directly that we are discriminating against black 
people. Instead there were literacy tests. They said people who 
can't pass literacy tests would not be allowed to vote, and 
then went right ahead and registered white people who didn't 
pass. And the literacy tests were ridiculous. Like, you would 
be told to write the state constitution out from memory, and if 
you left out a comma or misspelled a word, then you failed. So, 
these things are not straight up. People are not honest about 
it.
    Poll taxes were another thing that, you know, they didn't 
say we were discriminating against black people. They charged 
poll taxes when black people's wages were just virtually 
starvation wages. And so, that is a similarity. People are 
never honest and straight up and truthful. They have these 
subterfuges, and they have these complications, and I think we 
should just make complicated things simple. I would like to 
say----
    Ms. Norton. Thank you very much, Ms. Nash.
    Ms. Nash. All right.
    Chairwoman Maloney. Thank you. I now recognize the 
gentleman from Texas, Mr. Roy, for five minutes.
    Mr. Roy. I thank the chair. Thank you for holding this 
hearing. I thank all the witnesses for taking your time to 
being here today. I was reminded as we were talking about 
Chairman Cummings, the last time I was able to talk to him at 
any length, my son was here for hearing, and we talked for some 
time after, and we were regaling our mutual affection for the 
Baltimore Orioles. And as we head into spring training or 
heading around into April, I am hopeful that the Orioles will 
come out of it this year and actually have a good season, a 
breakout season, in honor of the chairman. But I was thinking 
about him yesterday when some of us were talking about the 
Orioles.
    But, you know, the issues that we are talking about here 
today are of the utmost importance, right? They strike at the 
core of who we are as American citizens in ensuring that all 
have access to vote, all have access to take part in our 
democratic republic. One thing that I would like to just make 
sure to clarify for the record, because I do think it is 
important, I spent a number of years as a lawyer for Senator 
John Cornyn on the Senate Judiciary Committee, including the 
time during 2005, 2006, 2007, or I should say 2004, 2005, 2006, 
when we were debating the reauthorization of the Voting Rights 
Act in 2006, which ultimately then led to the Shelby holding in 
2013.
    And at the time there was a great deal of debate and 
discussion, and at that time I was a counsel on the 
Subcommittee on the Constitution, I think, Civil Rights and 
Property Rights, I think is what it was called at that time. 
And what I think is important because I poured over the record 
intently at the time as a staffer as all the staffers in the 
room know you do. You are spending hours into the wee hours of 
the morning reading records and looking at the data. And 
striking at the core of what the Court found in 2013, I mean, 
far from being, I think, particularly I would say for Justice 
Thomas, but far from being a racially motivated decision about 
voting rights, this was a decision about data. And it was data 
that was being used, 1964, 1968, and 1972 data that was being 
used to justify Section 5, 4(b). And this was what was found to 
be problematic by the Court, I think rightfully so, because you 
can't justify Section 5 preclearance in 2006 based on data from 
1968, 1964, 1972.
    And that is what the Court found, and I think the Court was 
correct about that, and I don't think that should get lost in 
this discussion because in that time we had a record, and the 
record was filled with anecdotal examples of situations where 
race might be a problem with respect to voting and whether 
there might have been obstacles to voting around the country. 
And if you looked through the anecdotal records, and I 
encourage people to go through and look at the 2006 record at 
the anecdotal examples, you will find them dotted all over the 
country, and, in many cases, in states that were not covered by 
Section 5, and they were anecdotal examples.
    The point being was that the formula being used in the 2006 
reauthorization was flawed, and the Court rightfully 
acknowledged that Congress got it wrong by driving through a 
rushed reauthorization that was based on flawed data. So, what 
Congress should have done was gone through holistically looking 
at the record in terms of what examples of invidious 
discrimination exist and obstacles to getting to the polls that 
need to be looked at appropriately scattered around the 
country, not just looking at the Section 5 preclearance states, 
which were defined by 1964, 1968, 1972 data, as the record 
reflected at the time in 2006, and then as the justices found 
in 2013 in Shelby. I think that is an important thing for us to 
remember because that was the legal holding.
    The only other thing that I would note is this last 
weekend, my family, we are members of a large Baptist church in 
downtown Austin, Texas, High Park Baptist Church. We have been 
going to a different church of late, a Presbyterian church in 
Southwest Austin closer to our home. And I went in there and 
walked through the door, and there was a former colleague of 
mine in the Attorney General's Office of the state of Texas, 
David Whitley. David Whitley's name is scattered throughout a 
lot of these documents because he was the former secretary of 
state of Texas. David Whitley was working to try to figure out 
what levels of voter fraud exists in Texas. Voter fraud exists 
in Texas. It is real. The question is the number. The numbers 
that were released last year, which David Whitley in the 
Governor's office and others acknowledge that were wrongly put 
out prematurely, those numbers were wrong, and he acknowledged 
that. He lost his job for it.
    I talked to him. This is a man who was walking through, and 
he was with his daughter and his wife. He is real guy. He is a 
nice guy. And, David, you know, felt bad that that data got 
released that way. It was wrong. Later they found out that at 
least a quarter of those numbers were folks that had been 
naturalized citizens, then ultimately voted. There were 
thousands, though, in that pool of folks that there is 
indication of real voter fraud, and it is a real problem that 
we are dealing with in Texas, in particular because of a very 
porous border, which we have discussed at length in this 
committee.
    I would just ask us to remember that these are real human 
beings trying to deal with real problems, as we talked about, 
making sure that real human beings who should all be able to 
vote, should vote, and there should be no obstacles to that. 
And so, with that, I will turn it back over to the chair.
    Chairwoman Maloney. I thank the gentleman. His time has 
expired. The gentleman from Tennessee, Mr. Cooper, is 
recognized for five minutes.
    Mr. Cooper. Thank you, Madam Chair. I was going to yield to 
a statement to the Reverend Dr. Barber because he is under time 
pressure. So, Dr. Barber, I would be happy to yield to you if 
you are under a constraint.
    Reverend Barber. Thank you so much, and thanks to this 
committee, Madam Chair and Ranking Member, for allowing me to 
come. I have to actually get back to an Ash Wednesday service, 
but I just want to put three things to my friend, human brother 
from Georgia. All of your arguments were tried in the courts, 
and they did not work. The fact that you say, well, more people 
voted, that also was an argument of segregationists. 
Segregationists used to say, well, just because some black 
people made it through the segregation, it wasn't really that 
bad. None of that has ever held up in court. This argument of 
voter fraud, never been brought to court because it can't be 
proven in court.
    You also said that voter suppression is not the real issue. 
Voter fraud is the real issue. Yes, voter suppression is the 
issue. In North Carolina in 2018, we had 154 fewer voting 
places in the black community. In 2014, Thom Tillis won the 
Senate seat by less than 50 percent of the vote, by only 40,000 
votes. And a study was done by Democracy North Carolina that 
said that 75,000 were suppressed. In a book called, Give Us the 
Ballot, it says 250,000 votes were suppressed in Wisconsin, 
even though the president claimed it was won by 30,000 votes. 
We cannot just continue to take oaths in here and just lie. It 
is not true. Record numbers of turnouts has more to do with 
people fighting against regression than it has to do with them 
not being affected by voter suppression.
    And then last, I would say in North Carolina, we had a law 
already if you lie and you get caught, five-year felony. There 
was no voter fraud. The fraud is the claim of voter fraud as a 
way of not dealing with real voter suppression. And finally, to 
those who say that we needed a new formula, I don't agree with 
that theory because the states never quit. They never quit. We 
have to remember on the record that every state that was under 
the original Voting Rights Act, all they had to do was act 
right for 10 years. That is all. Stop discriminating for 10 
years. Stop suppressing for 10 years. Don't pass any bills for 
10 years. And Democrats in the South and Republican couldn't 
resist it. Couldn't resist it. They could have all been 
removed, but for 10 years.
    And Republicans have now exacerbated it because they are 
actually arguing in court that retrogression is legal because 
the Voting Rights Act preclearance is no longer in place. We 
heard that in court. Retrogression is legal. And one judge, a 
white Southerner from South Carolina, asked this question, a 
Federal judge from South Carolina who is white. He said, why is 
it that you all don't want people to vote? And the whole 
courtroom became quiet because, my friend, that is the ultimate 
question. Why are we more interested in retrogression than 
progression? God bless you.
    Chairwoman Maloney. The gentleman yields back. Mr. Cooper 
has remaining time.
    Mr. Cooper. Thank you, Madam Chair. There is no more 
revered name in Nashville, Tennessee than Diane Nash. Reverend 
Dr. Barber referred to her as a mother of the movement. This is 
a woman of undaunted courage, and she displayed more of it here 
today. I thought, although all the testimony of the witnesses 
was compelling, that her sentence in her testimony when she 
said, and I quote, ``Black voters and many non-black voters are 
in a worse place now than they were in the Voting Rights Act 
was passed in 1965.'' How sad a statement is that?
    I think especially young people take progress for granted, 
progress as inevitable. We have heard several statements here 
today about how we have gone backward instead of forwards. 
Reverend Dr. Barber had mentioned that we are 2,437 days in 
delaying the reforms that we need to see just to restore what 
we had. He referred to James Crow, Esquire, in a suit, and then 
he just had the statement that retrogression is legal. That is 
a just a fancy word for going backward. So, why is this 
happening to us today?
    I do my best to be bipartisan, and my friends on the other 
side of the aisle, this is the only type of government red tape 
that they really love is when it hampers voting. Sadly, my 
state of Tennessee has gotten really good at it. We just passed 
last year, and I know the committee has looked at, Georgia, 
Texas, and Kansas. Tennessee passed last year the first bill in 
America that would make voter registration efforts criminal 
when struck down by Aleta Trauger, our local Federal judge. Now 
they are amending the bill to only have $50 fines per instance, 
even though many of these are minor infractions, like a missing 
salutation on a form or an incomplete social security number, 
which most people are reluctant to hand out to a stranger 
anyway. But that is just like a poll tax in advance and could 
put many of these voter registration organizations out of 
business, which seems to be the ultimate intent. So, that is 
just one way our state of Tennessee sadly is going backward.
    But the Congress of the United States, people forget, and I 
wish Mr. Roy were still here because apparently he as a staffer 
for Senator Cornyn forgot the key information about the renewal 
of the Voting Rights Act in 2006. That vote in the U.S. Senate 
was 98 to 0. There was bipartisan unanimity on that, and in the 
House of Representatives it was 392 to 33. Tons of our 
Republican friends were enthusiastic in renewing the Voting 
Rights Act, only to be undercut by the Supreme Court.
    So, I am hopeful we will pass H.R. 1. I am hopeful it will 
get through the Senate because the House, of course, has 
already passed it. I am hopeful for more than that because most 
people don't realize there is really not an affirmative 
constitutional right in our Constitution for the right to vote. 
We have many Voting Rights amendments, but that is mainly to 
prevent discrimination, which allows states a free reign to 
reinvent Jim Crow to suppress the vote. So, I am hopeful the 
Twenty-Eighth Amendment will be the Equal Rights Amendment that 
our chair has championed for a long time. Wouldn't it be nice 
if the Twenty-Ninth Amendment absolutely guaranteed people 
right to vote? Then we could have many of the reforms that 
people are talking about and that we sometimes take for granted 
because it is not really written down in our own Constitution.
    But if we could all just show some of the courage that 
Diane Nash showed when she was, what, 21 years old, risked jail 
time, went to jail while pregnant to stand up for her basic 
rights. That is the sort of courage that folks in Congress need 
to show. So, thank you, Ms. Nash. You are a mother of a 
movement. You are an icon. All of you. Mr. Jenkins, you are 
amazing, and we need to learn from your fine example. Thank 
you, Madam Chair.
    Chairwoman Maloney. Thank you for that very moving 
statement. The gentleman from Kentucky, Mr. Massie, is now 
recognized for five minutes.
    Mr. Massie. Thank you, Madam Chairwoman. Ms. Johnson-Blanco 
I think I heard you say that you were concerned that photo 
identification disproportionately disenfranchises minorities 
when they go to exercise their right to vote. Is that correct?
    Ms. Johnson-Blanco. What I stated is that in our Texas this 
photo ID litigation, it showed, and the Court found, that the 
photo ID law in Texas disproportionately discriminated against 
minority voters.
    Mr. Massie. Do you have that same concern in other states 
that are trying to pass similar laws?
    Ms. Johnson-Blanco. States that are trying to pass voter ID 
laws, they need to look at the impacts of those laws on 
eligible voters. And when we do our litigation against such 
laws, that is what we are looking at because any law that makes 
it more difficult for eligible voters to vote is a problem.
    Mr. Massie. So, some states have a photo ID requirement to 
exercise your right to keep and bear arms, and some states do 
not have a photo ID requirement to keep and bear arms. We know 
in the states where there is no photo ID requirement, there are 
more people who exercise that right to keep and bear arms. Are 
you concerned that the photo ID requirement for the right to 
keep and bear a firearm would also, for the same reasons, 
disproportionately affect minorities?
    Ms. Johnson-Blanco. Well, I work on voting rights. I am 
not, you know, expert on the Second Amendment and the impact it 
has on minority voters. What I am concerned about is that photo 
ID laws that keep people from being able to vote, you know. In 
our Texas photo ID litigation, we had someone who said I had to 
choose between my kitchen and voting because she couldn't pay 
for the underlying document needed to get her ID. That is what 
I am concerned about.
    Mr. Massie. But can you see how it would have the same 
effect? I am not asking you to weigh in on the Second 
Amendment. I am just asking do you believe that it could 
possibly disenfranchise minorities in the same way that it does 
when voting, as you believe it does when voting?
    Ms. Johnson-Blanco. I am trying to understand your 
question. Are you asking me if minorities have less access to 
guns because of photo IDs to bear arms?
    Mr. Massie. That is correct.
    Ms. Johnson-Blanco. I don't know the answer to that 
question.
    Mr. Massie. OK. Ms. Nash, you mentioned poll taxes and how 
they would disenfranchise the poor, and maybe in some cases 
minorities, I think. Is that correct?
    Ms. Nash. Mainly disenfranchised blacks.
    Mr. Massie. OK.
    Ms. Nash. And they were poor.
    Mr. Massie. So, some states require a fee to exercise a 
person's Second Amendment right to keep and bear arms, and some 
states do not require a fee for a person to exercise their 
right to keep and bear arms. Washington, DC. is a jurisdiction 
where you do have to pay a rather hefty fee to keep and bear 
arms. Do you believe that that requirement, that monetary 
requirement, could also disproportionately disenfranchise 
African Americans from their right to keep and bear arms?
    Ms. Nash. I don't know. I would have to take some time to 
study that issue----
    Mr. Massie. Can you explain why----
    Ms. Nash [continuing]. And consult with people that know 
about it.
    Mr. Massie. Can you explain why it wouldn't it? It seems 
like a pretty straight analogy.
    Ms. Nash. No, I really prefer to take time to think about 
things, you know. You know, I could give you a spur-of-the-
moment answer. I am not sure what that would be. But I think 
that would be irresponsible of me.
    Mr. Massie. Let me ask everybody here one question because 
some of you have mentioned--I wish Reverend Barber was still 
here--But some of you have mentioned that there are too many 
barriers for people who have served a sentence in obtaining 
their right to vote again after they have served their time. I 
would like to ask you, Ms. Nash, do you believe that a 
nonviolent felony offender who served their time should have 
their right to keep and bear arms restored?
    Ms. Nash. Yes, I think after a person has paid their debt 
to society, that all of their rights should be restored.
    Mr. Massie. Ms. Johnson-Blanco, do you believe that a 
person, a nonviolent felony offender who has served their time, 
should have the right to keep and bear arms restored?
    Ms. Johnson-Blanco. I would need to think about that. It is 
not something that I have, you know, looked into, but I do 
believe----
    Mr. Massie. The Second Amendment is a basic constitutional 
right.
    Ms. Johnson-Blanco. It is a basic constitutional right, and 
I believe that anyone who has served their debt to society 
should have access to all available rights.
    Mr. Massie. So, that would include the right to keep and 
bear arms, the right to own and carry a firearm.
    Ms. Johnson-Blanco. Potentially. Like I said, I would need 
to think more about that.
    Mr. Massie. It there a reason why you wouldn't let them 
have their right to keep and bear arms that is guaranteed in 
the Constitution if they are a nonviolent felony offender who 
has served their time?
    Ms. Johnson-Blanco. There is no reason that I can think of 
at the moment, no.
    Mr. Massie. I can't think of one either. Mr. Jenkins, would 
you restore the right of a nonviolent felony offender who has 
served their time to keep and bear arms?
    Mr. Jenkins. If there are no other considerations that 
would disqualify them, there is an absolute right for people to 
have political rights. I do not see that there is an 
equivalence between that and bearing of arms. I think that one 
of the fundamental things that we are here to talk about is 
voting rights. We shouldn't deflect. This shouldn't be a bait 
and switch to have a discussion about arms when the issue is 
voting rights.
    Mr. Massie. Let me ask you, Mr. Jenkins----
    Mr. Jenkins. We need to have an ability to do----
    Mr. Massie. You sound very passionate, but you sound 
unconcerned about the ability of----
    [Applause.]
    Mr. Massie. You sound unconcerned about these laws that, it 
seems to me, that you all would agree disproportionately 
disenfranchise minorities from exercising a basic 
constitutional right. And just wrapping up, I know my time is 
expired, I want to say that I am glad it looks like we have 
unanimous agreement here. At least nobody here at least asserts 
that somebody should be deprived of a constitutional right, 
such as the right to keep and bear arms, after they have served 
their sentence----
    Mr. Jenkins. Let the record show that nobody has died 
because of their being deprived of bearing their guns. What we 
can have is a registering of people----
    Mr. Massie. Mr. Jenkins, that is absolutely false.
    Mr. Jenkins. No, it is not false.
    Mr. Massie. I can give you multiple examples.
    Mr. Jenkins. It is not false.
    Mr. Massie. I had a staffer who worked for me whose husband 
was shot in front of her----
    Chairwoman Maloney. The gentleman's time has expired. The 
witness has answered.
    Mr. Massie. Madam Chairwoman, may I finish because you 
indulged the other members?
    Chairwoman Maloney. OK. All right. Finish.
    Mr. Massie. OK. What you are saying, Mr. Jenkins, is 
absolutely incorrect. I had a staffer, Nikki Gosar, who worked 
for me. She watched her husband be gunned down in front of her 
in a gun-free zone because her firearm, she followed the law 
and left her firearm in the vehicle. So, do not tell me and do 
not tell her that nobody has ever died because they were 
deprived of their right to keep and bear arms.
    Mr. Jenkins. Let me tell you this, that the whole business 
of being able to vote is not intermeshed with the business of 
bearing arms. You are taking the time that we are trying to 
deal with a constitutional right to be a citizen and turning it 
into something else. Use another forum. We don't have many 
opportunities to get a right to vote. We don't have an 
opportunity to talk about the whole business of the way in 
which the Constitution has been distorted. And don't take us 
off on some rabbit trail of talking about arms----
    Mr. Massie. The Constitution is not a rabbit trail, and it 
looks somewhat disingenuous when you are now trying to pick and 
choose which constitutional rights that somebody should have--
--
    Mr. Jenkins. I am trying to pick and choose the subject 
matter of this hearing.
    Mr. Massie. Do you understand that this is my time, and I 
am concerned about this issue for minorities because we know it 
to be true? Everything----
    Mr. Jenkins. You are filibustering on a question that is 
irrelevant----
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Massie. I yield back.
    Chairwoman Maloney. OK. The gentleman from Virginia, Mr. 
Connolly, is recognized for five minutes.
    Mr. Connolly. I thank the chairwoman. Mr. Jenkins, you just 
saw and experienced the distraction that occurs on the other 
side of the aisle because they don't want to talk about voting 
rights protection. If we start with the Constitution of the 
United States, the first thing we should be concerned about is 
protecting the sacred franchise of the right of every American 
to be able to vote. Instead he wants to talk about gun control 
because he is uncomfortable apparently talking about your right 
and my right to vote unimpeded.
    This country has experienced an epidemic of voter 
suppression measures since Republicans took over state houses 
and Governors' mansions all across America, strict voting ID 
laws that many people, especially people of color, cannot meet 
and they know it. Whimsical, capricious purges of voting rolls, 
millions of fellow Americans because they missed an election. 
Capriciously denying them the right to vote. Voter intimidation 
tactics. Robocalls that tell people on the eve an election 
their precincts have changed, or warning them that there will 
be all kinds of people at the voting place to make sure no one 
is committing voter fraud. That is intimidation.
    Mr. Jenkins, would you agree with the proposition that what 
we are talking about at most, the Brennan Center says that 
voter impersonation is virtually nonexistent. Actual voter 
fraud in the United States is extremely limited. But the fact 
that almost 40 percent of Americans don't vote, don't vote even 
in a Presidential election, I don't know, call me silly, but 
that might be the bigger problem, not voter fraud, the fact 
that we don't have universal voter participation, not even 
close. Would you agree with that proposition?
    Mr. Jenkins. I do agree with that, that is not an issue 
that we need to be concerned about because the whole business 
of voter fraud is itself a fraud. And the fact of the matter is 
that we have adequate protections on the business of voting 
rights when it comes to the question of fraudulent defenses. 
What I think we need to be clear about is that when we are 
trying to describe ways to address the fundamental right to 
participate in this democracy, we ought not confuse that with 
the side issue of something that is irrelevant to the business 
of being a citizen.
    Mr. Connolly. I couldn't agree more, but if you don't want 
to talk about voter suppression and voter participation, you 
got to distract public attention with something else. There is 
a video playing right now. Chairwoman Maloney mentioned a 
hearing that our late chairman, Mr. Cummings, had with Mr. 
Raskin. After the 2012 election, Mr. Cummings and I had a field 
hearing in my district about this. This is a precinct in Prince 
William County, the second largest county in Virginia, called 
River Oaks. It was at that time the only minority-majority 
precinct and a very large one. And the lines snaked outside for 
hours because of a breakdown in voting machines, and there were 
no replacements. It just so happened this was virtually the 
only precinct in the whole county where this happened. And this 
is showing you the lines inside the school, but, frankly, it 
took my intervention to get that to happen. Otherwise on a, 
cold, cold day, all those people were outside with children 
taking off from work go vote.
    And it may not have been intentional. It probably wasn't. 
But the fact that there was no backup, the fact that it only 
happened in this precinct was something quite striking. And Mr. 
Cummings and I, as I said, had a field hearing to better 
understand how this happens. So, it may not be deliberate, but 
its de facto voter discouragement.
    Fortunately, the people in River Oaks were not going to be 
discouraged in 2012. I can remember going up and down the line 
outside saying, please stay, please stay, and to a person they 
all went, oh, don't you worry. No one is going to take away our 
vote, our right to vote. They were aware of the sacrifices you 
mentioned, Mr. Jenkins, that allowed them to have this right to 
vote, and they weren't about to let it slip away because of a 
lack of voting machines, adequate voting machines.
    So, I just want to say, I want to thank all of you for 
being here. This is a sacred topic. It is a passion for most of 
us up here, and we can't allow ourselves to be distracted by 
other topics. Voter suppression is wrong. Anything that impedes 
the ability of people to vote or discourages them directly or 
indirectly, subtly or explicitly, is wrong, and we have to 
fight it wherever we face it. Too many people, as you remind 
us, Mr. Jenkins, sacrificed a lot for that right to be 
reasserted, for us to finally honor the Fifteenth Amendment, 
and we are going to continue that fight until we prevail.
    And I am very proud of the fact that as the new majority in 
Richmond, the state capital of Virginia, we have rolled back 
voter suppression measures. We have made it easier for people 
to vote early, taking away the requirement for some kind of 
excuse, and we are going to continue to do that in our state, 
and I hope it will be a national movement. Thank you, Madam 
Chairman.
    [Applause.]
    Chairwoman Maloney. I thank the gentleman. The gentleman 
yields back, and I would now recognize the Congressman from 
Wisconsin, Mr. Grothman, for five minutes.
    Mr. Grothman. First of all, I'd like to submit into the 
record, I am told the Heritage Foundation has 1,085 examples of 
a voter fraud. One of the witnesses, I think, said 
inappropriately that it is something that that doesn't happen. 
As a downpayment, we have got about 40 here in Wisconsin, and 
they are running off the other 1,000 or so.
    Chairwoman Maloney. Without objection.
    Mr. Grothman. We will put that wherever we put them. OK. 
Thank you very much. The second thing, it is to me obvious the 
reason why we have photo ID, and I sponsored a bill, and I 
voted for photo ID in Wisconsin, and that is because we want to 
avoid fraud, OK? There is a concern that people are going to 
say they are somebody who is on the voter rolls when they 
aren't, and without the photo ID, you are not going to be able 
to know whether it is that person or not. I know somebody--I 
haven't confirmed it--who claims that her mother, who is 
deceased, turned up as having voted in the city of Milwaukee. 
So, this is why we need it, for obvious reasons.
    I have got a couple general questions. There are many 
things in society that you have to do that are arguably more 
important, at least on a personal level, than voting. Maybe you 
need prescription drugs that may need to save your life. Some 
states, welfare benefits. Going on an airplane, you know, you 
can go on an airplane on a very, very important trip. All these 
things you need photo ID, and I can imagine if you didn't have 
your ID, the inability to take an airplane, the inability to 
take prescription drugs, inability to buy a gun, the inability 
to get welfare benefits, would really shake up your life. But 
for some reason, we never hear of people complaining about 
that.
    You know, I flew out last night, had to show my ID. You 
know, it would have been a real mess for me if I didn't have an 
ID, but nobody ever screams on these other issues. I wondered 
why the advocates who make such a big deal here, and, of 
course, as somebody who advocates for photo ID and wonder about 
people who want people to vote without it, are encouraging 
cheating, why on these other things like prescription drugs or 
some public benefits, we aren't screaming you shouldn't have a 
photo ID?
    Mr. Jenkins. Well, I think the reason is that we are 
intelligent enough to be able to focus on what the issue is at 
hand.
    Mr. Grothman. No, no----
    Mr. Jenkins. We are not dealing with prescription drugs. We 
are not dealing----
    Mr. Grothman. Well, you are not answering my question.
    Mr. Jenkins [continuing]. With a lot of irrelevant uses of 
photo IDs. We are dealing with the right of people to vote, and 
that is what we ought to address. Don't take us off on some 
other track talking about other things----
    Mr. Grothman. Well, would you----
    Mr. Jenkins [continuing]. That have nothing to do with 
voting.
    Mr. Grothman. OK. Well, I will give you another question. 
There are there are many other countries--Mexico to our South, 
just looking on the internet, assuming I can trust the 
internet--other countries in which you refer to people of 
color--Mexico, Costa Rica, Brazil, Mozambique, Botswana, 
Madagascar, Zambia--just a tip of the iceberg on the number of 
countries that have photo ID. Why do you think all these other 
countries all around the world feel that photo ID is important?
    Mr. Jenkins. You have despotic countries all around the 
world who want to repress their people by any means possible.
    Mr. Grothman. So, you consider Mexico a despotic country. 
You consider Costa Rica----
    Mr. Jenkins. They will use all kinds of techniques. What we 
are----
    Mr. Grothman. France, Germany.
    Mr. Jenkins [continuing]. Dealing with here not the 
discouragement of other countries against democratic 
principles. It is our country that has our Constitution. It is 
our country that said we the people are supposed to be able to 
exercise the vote.
    Mr. Grothman. I mean, what you are doing, and this is what 
offends me about this, you are charging people who want photo 
ID because we want to make sure that people, you know, who are 
voting are who they say they are. You are claiming racism. And 
the point I am trying to make out to you is that there are so 
many countries around the world, including countries that are 
nowhere near as multiracial as our country, and they all 
require photo ID.
    I don't think when Costa Rica or Mexico or Brazil require 
photo ID, I don't think it is out of despotism. I think it is 
out of the reason that I say. It is that they don't want people 
voting, claiming they are somebody who they are not, that sort 
of thing, and it is very inflammatory to say it is for any 
other reason. Now, these dozens of other countries around the 
world that require photo ID, I would think it is for the same 
reason that I am for it. I don't want people cheating. Do you 
have any evidence that there is any other reason for all these 
other countries around the world having photo ID?
    Mr. Jenkins. They are not democracies that are parallel to 
ours. They do not have a Constitution of the United States like 
ours. They do not have a system that guarantees these rights.
    Mr. Grothman. Ms. Nash, do you have a response?
    Mr. Jenkins. You are trying to introduce irrelevancies 
about Costa Rica, Mexico, and other places that have no bearing 
on the United States Constitution and the way in which people 
should be guaranteed the right to participate in their 
government.
    Mr. Grothman. Thank you.
    Mr. Raskin.
    [Presiding.] Thank you. The gentleman yields back. I will 
take my five minutes now. First, I want to thank the whole 
panel for coming and testifying and giving us your insight and 
perspectives. You connect us to a noble and honorable moment in 
American history, and so we thank you for your hard work and 
the sacrifices that you have made.
    Ms. Johnson-Blanco, I want to start with you. Mr. Cooper 
invoked the strange absence of a universal affirmative 
constitutional right to vote in the U.S. Constitution. We, of 
course, have a sequence of ad hoc anti-discrimination 
amendments that were extracted through the blood, sweat, and 
tears of social movements. So, the Fifteenth Amendment said no 
race discrimination in voting. The Nineteenth Amendment said no 
discrimination based on sex in voting. The Twenty-Third 
Amendment gave people in D.C. the right to participate in 
Presidential elections. The Twenty-Fourth Amendment said no 
poll taxes. The Twenty-Sixth Amendment lowered the voting age 
to 18. But nowhere do we get what you find in most of the other 
constitutions in the world, which is a universal command of 
everybody having the right to vote and participate at every 
level of government, like if you look at the new South Africa 
Constitution.
    That is why we are in the business of fighting to 
reconstruct a Voting Rights Act that was dismembered by a five-
justice conservative majority, treating the Congress of the 
United States like an administrative law tribunal, like some 
kind of administrative commission, demanding to see what our 
evidence is for exercising our powers. But my question for you 
is, is a constitutional amendment for the right to vote on the 
agenda of the civil rights today?
    Ms. Johnson-Blanco. It is something that the civil rights 
community is looking at because we are very concerned that a 
lot of the restrictions that are being imposed are being 
imposed because there isn't an affirmative right to vote in the 
Constitution. We do, however, acknowledge that through our 
recognized right to vote through the jurisprudence of the 
Supreme Court in looking at the Fifteenth Amendment and the 
Voting Rights Act, but there is a----
    Mr. Raskin. At least up until Shelby County v. Holder, 
where the Supreme Court, you know, started to exercise strict 
scrutiny of congressional efforts to enforce the right to vote, 
but I appreciate that, and I look forward to working with you. 
Mr. Jenkins and Ms. Nash, let me turn to you for a second. Both 
of you invoked your late colleagues and friends, Schwerner, 
Chaney, and Goodman, and others who lost their lives fighting 
against political white supremacy in the South, Viola Liuzzo, 
Medgar Evers, many other people who were gunned down fighting 
for the right of people to vote. And I wonder, looking at the 
struggles today against the massive voter purges which have 
included millions of people since 2016, looking at the efforts 
to vindicate the right to vote against this constant undertow 
of efforts to shut down polling places and make it more 
difficult to vote, what do you think about the sacrifice of the 
people that you worked with back in the Civil Rights Movement? 
What do you say to their families today because I don't know 
how many people would actually give their lives in this cause? 
And what do you say to their family and friends, and what do we 
owe them? Ms. Nash?
    Ms. Nash. I think that people today don't realize how 
patriotic black people who fought for the right to vote were 
back in in the early 60's. Just quickly, I would like to 
mention that people who lived on plantations and had 15, 16 
children would go down to the courthouse to try to register to 
vote, and someone at the courthouse would call back to the 
plantation and say, your Willie or your Mary is down here 
trying to vote. And by the time Mary or Willie got back to the 
plantation, they wouldn't have a job and they wouldn't have a 
place to stay with their huge family. And they kept doing that, 
and they knew that that was going to happen because it had 
happened so many times before, but they did it for the 
collective benefit.
    I would have trouble talking to their descendants today 
after those kinds of sacrifices were made. I think present-day 
Americans owe them to reestablish the democratic right to vote. 
The right to vote is the basic unit of democracy, and one 
person-one vote, if we don't have that, I think we as a 
republic are in serious trouble.
    Mr. Raskin. Thank you. And, Mr. Jenkins, do you have any 
reflections on that?
    Mr. Jenkins. I think that the fundamental of the right to 
vote is the warp and woof of having a democracy. The reason 
this country claims to be a democracy is because it allows 
everybody to participate in the way in which the public policy 
of the country is being directed. And people need to understand 
that that right is inherent in them being a human being and 
being part of the politics and the body politic of the United 
States. And one of the things that worries me most is that some 
young people, who are so discouraged by the way in which the 
suppression of political participation is going on, that they 
have given up and walked off.
    I think it is fundamental that we recognize not just the 
handful of names that we know, but many hundreds of names that 
we do not know. Remember that when they went to look for the 
bodies of Goodman, Chaney, and Schwerner, they found hundreds 
and thousands of skeletons of unnamed people who had died. How 
many of them were victims of an undemocratic system? I think 
one of the things we have to remember is that fundamentally, we 
as a country have failed to live up to the ideals that we 
talked about when it comes to practice.
    Mr. Raskin. Thank you very much. The gentleman from North 
Dakota, Mr. Armstrong, is now recognized for his five minutes.
    Mr. Armstrong. Thank you, Mr. Chairman. North Dakota is the 
only state without voter registration. We are pretty proud of 
that. It is very unique, but yet we somehow end up in these 
conversations once in a while. We had a law that was challenged 
on voter ID in 2012. It went through the courts, and as 
recently as three weeks ago, there has been a settlement 
reached between the lawyers representing the Native American 
tribes in the state of North Dakota. Now, I don't pretend to 
know the particular and unique circumstances of every other 
district, but I do know that if you would read the majority 
staff memo regarding North Dakota, which states, ``North Dakota 
passed a law that required identification with a voter's 
current residential street address in order to vote, a 
requirement that excluded Native American communities on 
reservations that often do not have street addresses. The law 
affected tens of thousands of Native American Americans in 
North Dakota in an election year in which Kevin Cramer won that 
won the race by 35,344 votes.''
    That statement is misleading at its most charitable 
interpretation. What it doesn't say is that in the prior Senate 
race, the Democratic candidate won by less than 3,000 votes. It 
doesn't say that in the 2018 race, that that vote margin was 
just under 10 percent of the entire vote total. But probably, 
more importantly, what it doesn't take into account at all, 
either through complete lack of diligence or intentional 
omission, is that Native-American turnout was the highest it 
had ever been in the last 14 years in North Dakota.
    The Turtle Mountain have easily suppressed our voting 
numbers from state and Federal elections the last four years, 
and the polls are still open. The Turtle Mountain Band of 
Chippewa Chairman, Jamie Azure: ``Rowlett County reported the 
Turtle Mountain reservation reported 5,102 votes on Tuesday, 
the highest number in at least 14 years, including Presidential 
elections. More than 1,400 people voted in Sioux County, which 
is completely within the Standing Rock Sioux Reservation, an 
increase of more than 200 voters from the 2016 Presidential 
election.'' To imply that a voter suppression law, which, by 
the way, a court found valid, was the reason that our senator 
won the election is either intentionally not doing the research 
on what went on in North Dakota, or intentionally placing 
things in the record that make it seem more severe than it is, 
and it is not true.
    We are glad we have reached a settlement. We are glad to be 
the only state in the country without voter registration. Even 
in North Dakota and even on Native-American reservations, we 
are proud of the fact that we have the easiest access to the 
ballot of any state. So, it gets to be a little concerning for 
me when I see those things about something I know specifically 
about, that I lived through, that I was a part of, being 
portrayed in a way that is simply not accurate. And with that I 
yield back.
    Chairwoman Maloney. [Presiding.] The gentleman yields back. 
I now recognize the gentlewoman from Michigan, Ms. Tlaib, for 
five minutes.
    Ms. Tlaib. Thank you so much for being here. I cannot 
express to you, Mr. Jenkins, how much the spirit of late 
chairman, our forever chairman, Congressman Elijah Cummings' 
spirit in being effective and efficient. I think you have 
helped make sure that happens as the line of questions come 
toward you. In the spirit of what Mother Nash has said is how 
do we uncomplicate something that should just be pretty simple, 
and I think you have been reiterating the importance of we are 
a democracy, it is in the Constitution. and so forth.
    Just so it is simple for folks to know, I mean, the right 
to vote is guaranteed by the Constitution. Congress has clear 
authority, clear authority, to investigate, any level of 
government, to try to push back on any infringement on that 
right. So, in spirit of simplifying this, as Mother Nash has 
asked us to do, you know, what do you think these folks, which 
I will call oppressors, what do you think these folks are 
really truly afraid of? Let's just talk about it. I think it 
needs to be out in the open. Why are they so afraid of us, 
people like us, voting? Mr. Jenkins?
    Mr. Jenkins. I think basically it is a reflection on the 
history of America. As I pointed out in my remarks, when they 
talked about ``we the people of the United States,'' and then 
excluded women and excluded indigenous populations, excluded 
poor people, they were making a definition of democracy that 
was only for themselves. And one of the things that I think we 
have to raise over and over again is that many of the 
institutions that were created under that mentality are 
affecting us in a disadvantaged way today. I mentioned the 
Electoral College. The Electoral College is a barb on the whole 
face of democracy in the United States because what it says is 
that people's real estate is more important than their lives.
    Ms. Tlaib. Yes, that is right.
    Mr. Jenkins. And it is to imbalance the whole system so 
that people who come from states with a handful of population 
have the same votes as people who come from states that have 
millions of people. That is a perversion of democracy. And I 
noted that after the remarks that were made about the Electoral 
College, not one question was raised about the Electoral 
College, the defense of it or a criticism of it. But that is 
fundamental, and we have got to be able to deal with basic 
issues, not superficial issues.
    Ms. Tlaib. I got it.
    Mr. Jenkins. Chasing rabbits is not what the Congress 
should be doing.
    Ms. Tlaib. Thank you. What are they afraid of? OK. They are 
afraid. They don't want us to dismantle the Electoral College 
basically, you know, protected landowners, protected that kind 
of classism that was going on in that form of repression. But 
your opinion from the work that you have been doing and looking 
at all of this form of oppression and making sure that it is 
harder for folks that look like us to vote.
    Ms. Johnson-Blanco. So, what I would say and what I have 
seen in my work is that, you know, as Mr. Jenkins alluded to, 
our democracy was not founded with the idea that all eligible 
voters would have access to the polls. And what we are seeing 
now is that their attempts, as the Voting Rights Act gives life 
to the Fifteenth Amendment and broadens to those who are 
allowed to vote, we are seeing both the challenge of our 
democracy not having or making the resources available to 
ensure when there is robust turnout, that everyone has access 
to the ballot. And then we were also seeing laws that are being 
passed that affect certain types of voters.
    And, you know, there has been this argument that there has 
been robust turnout, but its robust turnout in spite of. We saw 
the video of the long lines. That is a lot of burden on voters 
to have to take to have their voice heard. No voter should have 
to wait in hours' long lines in order to have their voice 
heard. And even if there is, you know, robust turnout, there 
are those individual voters, the voters that I care about, who 
are not having the opportunity to vote when they try to engage 
in the franchise. And those are the voters that laws like the 
Voting Rights Act wants to protect.
    Ms. Tlaib. I only have a few seconds. Mother Nash, I don't 
want you to get cutoff, so I would love to hear about this. I 
mean, you know, having Election Day be a national holiday, I 
think, it is an important conversation. Getting rid of the 
Electoral College is an important conversation. Talking about 
no-reason absentees so we don't see these long lines is an 
important conversation. It should be easy to be able to vote 
here as an American citizen. But with last words of wisdom to 
all of us and really getting back to the simplifying, what are 
they afraid of? Why don't they want us to vote?
    Ms. Nash. Congresswoman Tlaib, I think we have to realize 
that this country was founded on genocide against Native 
Americans, and then slavery was an extremely fundamental 
institution in our history. The country has never confronted 
those facts directly and officially recognize those as at least 
mistakes, and done what is possible to do to make restitution. 
I think that as a result, white supremacy is still very much 
with this society. I think we look on the value of lives of 
Europeans and white Americans, and Australians, and maybe 
Israelis as much more valuable than the lives of people who are 
Asian, African, and Latin American.
    We have to confront that directly I think. I think more 
particularly, common, ordinary citizens who are white need to 
confront racist white people. There is a fantasy on the part of 
many whites where they, you know, think of themselves as 
Scarlett O'Haras, you know, wealthy white plantation owners 
that subjects people of color. The President of the United 
States recently, while saying he welcomed people from Norway, 
that he mentioned immigrants from colored countries as s-hole 
countries. And, you know, we have to, I think, confront this 
kind of attitude across the board definitely.
    And I think that in the South, particularly during the 
Civil Rights Movement, white people were afraid that if we got 
power, we would do them like they had done us, and there was a 
lot of fear around that. Well, that didn't happen. But there is 
something to karma, that people know when they have mistreated 
people over a period of time, then they become afraid of them 
if they have equal power. I think there is a real emotional 
illness around race in this country.
    Chairwoman Maloney. Thank you. The gentlewoman's time has 
expired. The chair now recognizes Mr. Armstrong for a unanimous 
consent request.
    Mr. Armstrong. Thank you, Madam Chair. I would like to 
unanimous request to enter two articles into the record. One is 
from the Dickinson Press saying, ``Voter Turnout High Across 
North Dakota, November 7, 2018.'' The second one is from the 
Bismarck Tribune that says, ``North Dakota Reservations See 
Record Voter Turnout Amid Fears of Suppression,'' which is also 
November 7, 2018.''
    Chairwoman Maloney. Without objection.
    Chairwoman Maloney. And without objection, the following 
report from the Brennan Center for Justice will be placed into 
the hearing record. This report addresses claims that the 
Heritage Foundation document contains almost 1,100 proven 
instances of voter fraud are grossly exaggerated and devoid of 
context. Without objection, placed into the record.
    Chairwoman Maloney. The chair now recognizes the gentleman 
from Maryland, Mr. Sarbanes, for five minutes.
    Mr. Sarbanes. Thank you very much, Madam Chair, and thank 
you to the panelists today for your powerful testimony. As I am 
sure you know, the first piece of legislation that the 
Democratic Caucus brought to the floor of the House in 2019 was 
H.R. 1, the For the People Act, which was a broad anti-
corruption and clean elections bill that addressed many things, 
including voter access. Subsequent to that, we brought H.R. 4 
to restore the Voting Rights Act. That was passed. Last week, I 
think, or maybe the week prior, we brought Congresswoman 
Norton's H.R. 51 into this committee, passed out of committee, 
which would provide statehood for the District of Columbia and 
redress this centuries-old wrong. So, we are moving on our side 
of the aisle and on this side of the Capitol to try to deal 
with the issue of voter access.
    One of the key elements among many that was contained in 
H.R. 1, and many of these are things that Congressman Lewis had 
worked on for years in legislation, it was incorporated into 
the broad package, was automatic voter registration. And Ms. 
Johnson-Blanco, do you believe that congressional action to 
require automatic voter registration across the country 
nationwide would help Americans exercise that right to vote?
    Ms. Johnson-Blanco. Yes, I do. Far too often, we are seeing 
that there are challenges to access to voter registration. The 
Lawyers' Committee convenes the Election Protection Coalition, 
and we have an 866-OUR-VOTE hotline, and we have calls into the 
hotline when people aren't even aware that they need to 
register to vote. So, having the opportunity that allows them 
to automatically register to vote would definitely advance 
participation in our democracy.
    Mr. Sarbanes. There are sort of two sides to this 
conversation clearly. There is this whole issue around the 
renewed, I think, renewed connivances, might have been the 
phrase that you used, Mr. Jenkins. So, all of these things to 
play mischief with the franchise in terms of new voter 
suppression techniques: making people jump through hoops, 
hiding it through kind of process-based rigmarole when we 
really know what the intent is behind it. And so, having very 
specific provisions of law that can address voter suppression, 
in other words, address the kind of negative things that are 
being done out there when it comes to voter access.
    But at the same time, on the other side of the ledger, we 
want to plus up, reinforce, and establish things that can 
improve and enhance access and the franchise in this country. 
So, automatic voter registration is certainly an example. That 
was contained in H.R. 1. The bill also requires same-day voter 
registration so that eligible voters can register and vote on 
Election Day if they are not registered by that point in time. 
Again, Ms. Johnson-Blanco, can you speak to national same-day 
voter registration and how that might benefit some of the work 
to actually combat the voter disenfranchisement?
    Ms. Johnson-Blanco. Yes, I definitely support all 
legislation that improves access to voter registration, 
including same-day voter registration. We want to ensure that 
voters, when they show up to vote, they can do so, and very 
often we have found, because either that they have been wrongly 
purged or they weren't aware that they needed to re-register, 
that they show up and find that they can. So, being able to 
register in real time will definitely improve access to the 
ballot.
    Mr. Sarbanes. Thank you. If we can change what is now 
really an obstacle course for people getting to the ballot box, 
to really put access on a glide path by offering these 
different opportunities, and those include as well increased 
online voter registration, expanding early and absentee voting, 
requiring that states at least offer the opportunity for voting 
by mail. In other words, we should be exploring every possible 
opportunity to make it easier for people to register and to 
vote in this country.
    Last question. I invite anybody to speak to it if they 
would like. Another provision in H.R. 1 would require the re-
enfranchisement of all persons convicted of a felony upon 
completion of their prison sentences. That was something very, 
very important, nationwide restoration of voting rights for 
those who have paid their dues and serve their time. Could you 
speak to what you think the impact--anybody, I would invite--of 
having that provision now become part of law?
    Mr. Jenkins. Well, I think it is important to appreciate 
that one of the phenomena of the American experience has been 
the criminalization of race, and the fact that people are often 
convicted for various things because of their racial 
orientation. The whole manner in which law enforcement has been 
racialized has assured more arrests of black people than of 
white people. And when you have something that piggybacks on 
that discrepancy by having the franchise tied up with the right 
to vote, you are multiplying the effect of racism. And I think 
it is important for us to disaggregate the whole question of 
criminal behavior from the question of racial identity, and 
until we do that, we will not have a solution of our Democratic 
issues.
    Mr. Sarbanes. Outstanding. Thank you very much for your 
testimony. I yield back.
    Chairwoman Maloney. The chair recognizes the gentlewoman 
from New York. Ms. Ocasio-Cortez is recognized for five 
minutes.
    Ms. Ocasio-Cortez. Thank you, Madam Chairwoman, and thank 
you to all of our witnesses here today testifying on such a 
profoundly important issue. I think that one of the largest 
threats that we face in our country today is the unmitigated 
assault on our democracy, and that starts with the assault on 
particularly African American and black voters in our country.
    Last year, this committee launched investigations into 
state actions that limit the ability of Americans to vote, 
including in the state of Georgia. Now, I want to talk about 
Georgia. The Georgia Secretary of state reportedly purged more 
than half a million voters from the rolls, blocked thousands of 
new registrations, and closed polling places, all while he was 
a candidate for Governor. The documents that this committee 
received confirmed many of those efforts. And, for example, in 
September 2017, the press reported that efforts to challenge 
voter registrations ``may have violated Federal law.'' In fact, 
Mr. Kemp, that candidate, responded to this by congratulating 
his campaign team, writing, ``good work.'' This story is so 
complex, folks will not make it all the way through it.
    Ms. Johnson, Blanco, your organization has been active in 
Georgia. What is your view of the voter roll purges in that 
state?
    Ms. Johnson-Blanco. Yes, we have been very active in 
Georgia. Georgia keeps us very busy in fighting back against 
voting discrimination. And to answer your question that one of 
the things that Georgia did that I think speaks to the impact 
of the purges or related to it, is that with the exact match 
law that Georgia had, it points to something that the Supreme 
Court, when it found the Voting Rights Act constitutional, 
pointed to, which is the repeated efforts at suppression.
    The exact match law was first a procedure by the Secretary 
of State, and when we won the litigation against that, the 
legislature passed into law, and then we had to bring two more 
lawsuits to fight against it. And now we have a third lawsuit 
because the exact match law still applies to those who are 
naturalized citizens. So, they are not only aggressively 
removing voters from the rolls, but also preventing voters from 
getting on the rolls.
    Ms. Ocasio-Cortez. So, I am curious. What do you think of a 
top election officer in the state of Georgia congratulating his 
team over these reports?
    Ms. Johnson-Blanco. You know, I am speechless, right, 
because, I mean, that is one of the things that we confront 
when those who are charged with carrying out our voting laws 
are also running for office and abusing that. That is a 
problem.
    Ms. Ocasio-Cortez. So, it is out in the open what we have 
here. In fact, it is so out in the open that this committee's 
investigation also shows that as Georgia Secretary of State, 
Mr. Kemp, he with the White House and the Kansas Secretary of 
State, Kris Kobach, with noted ties to white supremacist 
organizations and individuals, financial ties and 
organizational ties, they served together to produce and 
promote the President's failed Voter Fraud Commission. So, 
let's talk about this voter fraud, the President's allegation 
that there is mass fraud in the United States. They put 
together a commission, and it was forced to disband because 
they had so little evidence. Their own commission had to be 
disbanded. So, Ms. Johnson-Blanco, what is the connection 
between the false claims of voter fraud pushed by this 
Administration and his allies, and the voter suppression 
efforts in Georgia and elsewhere that you have observed?
    Ms. Johnson-Blanco. I think the false narrative of voter 
fraud is used to pass laws, in effect, that keep eligible 
voters from being able to vote, and these laws 
disproportionately impact minority voters. Courts time and time 
again, in striking down the laws, show that they 
disproportionately impact minority voters. And, in fact, the 
Fourth Circuit, in striking down North Carolina's voter ID law, 
we all know that it said it was targeted with surgical 
precision at minority voters. But the Court also said it 
imposes cures for problems that don't exist.
    Ms. Ocasio-Cortez. And if I may, how are all of these 
efforts that we are seeing today any different from what we 
fought against in the Civil Rights Movement several decades 
ago?
    Ms. Johnson-Blanco. I think we are seeing an updated 
version of what we fought against. One of the things that was 
really striking for me when I was working on the record that 
did show voter discrimination when the Congress reauthorized 
the Voting Rights Act, is the focus on the implementation. We 
had a commissioner the National Commission on the Voting Rights 
Act, who was a Congressman from Alabama, who had to take a 
literacy test. His literacy test was who was the first 
president of the United States. That was not the same test that 
was applied to African Americans, as you heard Ms. Nash say. 
And so, we have laws that are seemingly neutral on their face, 
but in their implementation, the courts have shown again and 
again, including the Wisconsin voter ID law, that they 
disproportionately impact minority voters.
    Ms. Ocasio-Cortez. Thank you very much.
    Chairwoman Maloney. The gentlelady yields back, and, 
without objection, the statement of our colleague and leader 
and conscience on these issues, John Lewis, from the great 
state of Georgia, will be inserted into the record.
    Chairwoman Maloney. We now recognize the gentlelady from 
Massachusetts, Ms. Pressley, for five minutes. Thank you.
    Ms. Pressley. Thank you, Madam Chair, and thank you for 
convening this timely and incredibly important hearing. I had a 
written statement, but, to be frank, I am still seething from 
some of what occurred in this chamber a moment ago. And I guess 
it is impossible anymore to be disappointed when you are no 
longer surprised.
    I, you know, serve in this august institution and this 
committee with colleagues across the aisle who deny science and 
the climate crisis, who believe that because we have had a 
black president, we live in a post-racial America, who think 
that being poor is a character flaw, who believe that we still 
live, or we ever did, in a meritocracy, who espouse the 
redemption of Christ's love and grace, but only believe in 
second chances for a selective few. So, I should not be 
surprised that they think we are being dramatist about voter 
suppression. Forgive them, Father, for they know not what they 
do. I just wanted to say thank you. You know, to have the honor 
to serve in Congress with your fellow freedom rider, John 
Lewis, and I wonder if some of the comments that were said here 
today, my colleagues would ever say directly to John Lewis, who 
they consider to be a national treasure. But I digress.
    Let's get to the matter at hand here. I just know that I am 
46 years old. I have been doing movement-building work since I 
was 10 years old. My mother was a tenants' rights organizer in 
Chicago. Harold Washington's campaign was the first one I 
worked on. I would not be here as the first person of color and 
black woman to represent Massachusetts in the House of 
Representatives. That took 230 years. And I know I owe a debt 
to each of you, that I can say that. So, I just want to say 
thank you, and I apologize and completely disassociate myself 
from the comments that were said earlier by my colleague across 
the aisle.
    What I want to talk about is mass incarceration. Certainly, 
our mass incarceration crisis has further exacerbated many of 
the challenges that we have already enumerated here today, and 
these issues are intrinsically linked. Millions of individuals 
across the Nation have been arbitrarily and permanently 
stripped of their right to vote due to involvement in the 
criminal injustice system. These policies disproportionately 
impact black and brown communities. In fact, 1 in 13 black 
Americans of voting age are disenfranchised on the account of 
this broken system, and they continue to have their bodies 
where they are being warehoused, counted, and included in this 
Census for the suburban communities for which they are usually 
housed. But that is a conversation or debate for another day as 
well.
    We have seen some states moving forward with re-
enfranchising individuals who were formerly incarcerated. Ms. 
Johnson-Blanco, you point out the importance of the passage of 
the Amendment 4 in Florida, which would re-enfranchise 1.4 
million people, but now we see these newly restored rights in 
Florida under attack. How do these court fee requirements 
compare to the poll taxes that emerged in some states during 
the Jim Crow era?
    Ms. Johnson-Blanco. I think it is comparable. The Eleventh 
Circuit, which recently ruled against the fines and fees 
provision that the legislature imposed to those who have their 
rights restored under Amendment 4, noted that the fines and 
fees law places those returning citizens who can pay at an 
advantage over those returning citizens who can't pay. So, what 
the new law is saying is that in order for you to have your 
rights fully restored, you have to be able to pay to have a 
fundamental right that 65 percent of your fellow citizens said 
that you were entitled to.
    Ms. Pressley. OK. And so, for the purposes of the record, 
what should formerly incarcerated individuals do to ensure they 
can exercise their newly restored rights since last year alone 
Kentucky restored voting rights to 140,000 people, and 
Louisiana restored the right to roughly 36,000 individuals? So, 
for the record, what should they do?
    Ms. Johnson-Blanco. They should make sure they vote, they 
register and vote, and take advantage of these new laws, these 
new rights that have been afforded to them.
    Ms. Pressley. All right. Very good. I also just wanted to 
ask the question. I just want to make a point. In 2018 in 
Georgia, seven polling locations were suddenly closed by 
Republican lawmakers before the midterm election. They cited 
the ADA intended to protect the Nation's disabled communities 
as a pretext to disenfranchise minority voters. Had the U.S. 
Supreme Court not gutted the Voting Rights Act in 2013, the 
closures would most likely have been blocked by the DOJ, but 
without oversight from the Department of Justice, Republican 
lawmakers acted nefariously. So, we reject false choices that 
purport that access to the polls must be bartered between 
vulnerable and disenfranchised folks. And with the balance of 
my time, I just urge my colleagues to pick their heads up and 
to defend access to the ballot for everyone. And, again, I 
thank each of you freedom riders.
    Chairwoman Maloney. Thank you so much, and I now recognize 
the gentlelady from New Mexico, Ms. Haaland. She is recognized 
for five minutes.
    Ms. Haaland. Thank you, Madam Chair. Ms. Nash, Mr. Jenkins, 
Ms. Johnson-Blanco, and Reverend Dr. Barber, who is no longer 
here, thank you for your wisdom and truth, for being here, and 
for your dedication to fighting this extremely important issue.
    Over the past decade, many states have decreased people's 
access to voting by closing and moving polling places. Last 
September, a report from the Leadership Conference found that 
southern states have closed more than 1,000 polling sites since 
the Supreme Court's ruling in Shelby County v. Holder removed 
preclearance requirements from states that have historically 
disenfranchised black voters. And you can see it up on the 
screen. This is a map from the Leadership Conference report. 
And I notice down there Alaska, which has a large number of 
native folks living there, so we have also been 
disenfranchised.
    Since that Court ruling, Texas has closed 750 polls, 
Arizona 320, Georgia 214. Many of these closed polling sites 
are in minority neighborhoods. Ms. Johnson-Blanco, have you 
seen an increase in the closing of polls in historically 
disenfranchised communities since the Shelby County decision?
    Ms. Johnson-Blanco. We have indeed, and we have been 
working with our partners on the ground to, as much as we can, 
replace Section 5 in getting notice of when these polling 
places are expected to be closed, and have very effectively 
worked with communities on the ground to show the impact that 
it would have on them if the polling places were closed, and 
not just closed, but also moved. We had a situation in Macon-
Bibb County, Georgia where the plan was to move a polling place 
in an African American community to the Sheriff's office, 
despite the community's objections. And it is only after 
successfully petitioning against that that they were able to 
stop that move to the Sheriff's office. So, what we are finding 
is that without Section 5 of the Voting Rights Act, communities 
have to be extra vigilant to push back against these closures 
and their impact.
    Ms. Haaland. I think you have already talked a little bit 
about this, but what is the impact of these efforts on 
communities of color?
    Ms. Johnson-Blanco. So, communities of color are now 
finding that they have to do extra work to fight back against 
those who wish to suppress their votes, and this is not a 
burden that should be on those communities. Jurisdictions, 
particularly those with a history of discrimination in voting, 
should have to show the impact of laws or actions, like moving 
polling places, before they can be allowed to do.
    Ms. Haaland. Thank you. States have also restricted access 
to polls through onerous ID requirements and by limiting early 
voting in certain locations. For example, North Dakota passed a 
law in 2018 that required identification with a voter's current 
residential street address in order to vote, a requirement that 
excluded Native American communities on reservations that often 
do not have street addresses because they don't necessarily 
need them. Were it not for tribal leaders in those areas who 
act fast and work extremely hard to enfranchise voters in these 
native communities, Ruth Anna Buffalo, a Native-American woman 
from the Mandan, Hidatsa, and Arikara Tribe, may not have been 
elected, thereby defeating the man who penned that oppressive 
bill. So, sometimes democracy still does work in spite of the 
efforts that people go through to make it not work.
    Also in 2018, Florida tried to prevent public universities 
from hosting early voting facilities. Early voting at Texas 
State University in San Marcos was limited to three days while 
most other areas of state had two weeks. And, Ms. Nash, thank 
you so much for your passionate testimony earlier. I am very 
grateful to have you here. I wanted to ask you, why is early 
voting so important in protecting people's right to vote, 
especially in communities of color?
    Ms. Nash. I am not an expert on what is happening right now 
with the voting, but I understand that there is heavier voting 
in communities of color during the early voting process. So, 
that that is a good thing.
    Ms. Haaland. Thank you. Thank you. Madam Chair, I yield 
back my time.
    Chairwoman Maloney. The gentlelady yields back. Thank you. 
The gentleman from Missouri, Congressman Clay, is recognized 
for five minutes.
    Mr. Clay. Thank you, Madam Chair, and thank all of you all 
for being here today. The Brennan Center found that 16 million 
voters were purged between the Federal elections of 2014 and 
2016. That is almost 4 million more names that were purged from 
the rolls than between 2006 and 2008. Post-Shelby, it is 
notable that the higher purge rates ticked up in the parts of 
the country that have a demonstrated, documented history of 
discrimination in voting. Our ancestors knew the value and 
power of the ballot box, even if it was a life-or-death 
endeavor. The suppression efforts of the past were steeped in 
violence and intimidation, a shameful part of our Nation's 
history.
    Let me talk briefly about my state's history, Missouri. The 
day I first got elected to Congress in the 2010 general 
election, I was in court that day challenging what was then 
known as an inactive voter list. We forced the court to keep 
the polls open an additional three hours that day so that 
people who were standing in line could still get in to vote. 
And then, of course, the first press conference the day after, 
my Republican U.S. senator called the FBI on me to investigate, 
and, sure enough, the results came back that the Missouri 
Secretary of State was involved in a violation of the Voting 
Rights Act. So, that was the result, and then we made them 
change the whole way they purged voters so that they wouldn't 
violate people's voting rights.
    Let me ask you, starting with Mr. Jenkins. That was the 
initial occurrence of how we suppress votes in this country, 
and I guess in the 21st century. That was the Bush v. Gore 
election. But it was a national strategy on the part of my 
friends on the other side of the aisle to suppress communities 
of colors' votes. We know that since 2000, it has picked up. 
So, Mr. Jenkins, tell me what you think is the best way to 
combat these initiatives like in Georgia, what happened to 
Stacey Abrams where they first violated the rights of those 
people attempting to register to vote, and then they couldn't 
get to court fast enough to stop the purging. What are your 
recommendations on what we should do to combat this egregious 
behavior?
    Mr. Jenkins. One of the things we need to be mindful of is 
the connection between the economic consequences of any changes 
in voting laws that have the effect of making it more 
expensive, costly, or impossible for people to meet those new 
requirements. It is important for us to connect the business of 
fines, the business of requirements for photos, and all of 
these businesses, the things that require transportation to 
remote places, all have racial consequences, and it needs to be 
sophisticated in our opposition to those things.
    And one of the things that I think is critical is to have 
in our educational system the whole business of civics again so 
people are aware of the connection between voting and their 
rights. It is very alarming to note that in many, many, many 
states, the whole business of civic education has now been 
eliminated from the curriculum, so people do not learn when 
they are in grammar school and junior high and high school the 
connection between political exercise, and the control of 
government, and the control of their own lives. I think it is 
important for us to have alternatives that come from beyond 
just the governmental sources.
    One of the places that I have had some impact on is in this 
thing called Teaching for Change, which has been aimed at 
public school teachers to get them to understand that they can 
be a voice in their classroom to have people understand their 
civic rights.
    Mr. Clay. I appreciate your response. Can they answer?
    Chairwoman Maloney. The witness may answer. This is a 
historic hearing on a historically important, major, major 
issue for all Americans. Ms. Nash. Who did you want to comment?
    Mr. Clay. Ms. Blanco and Ms. Nash just very briefly. My 
time has run out, and my friend from Maryland hasn't given me 
his five minutes yet, but go ahead.
    [Laughter.]
    Ms. Johnson-Blanco. Yes, I think we need to keep up the 
drumbeat of what is in H.R. 1. It is fantastic that it has 
passed this body. It needs to become law. And one of the things 
unfortunately that we have had to do as civil rights groups in 
the face of the voter purges is now mount campaigns urging 
voters to check their voter registration before going to the 
polls, and to make sure that they are registered. We have also 
had to bring litigation against voters improperly placed on 
inactive voter rolls. So, it is a multi-pronged strategy that 
we need to engage here.
    Mr. Clay. Thank you. Ms. Nash, very quickly.
    Ms. Nash. Well, I think the suggestions of Mr. Jenkins and 
Ms. Johnson-Blanco are certainly important, and I agree with 
those. And I would just add, I know that it is necessary to 
counter and to address these issues, like the fraud and voting 
and purging, and what have you. But I would caution against 
allowing our ourselves to be limited by the agenda that the 
opposition resents. I said earlier they give you a hamster 
wheel to run over, and, you know, give you a problem, and you 
can spend years satisfying that problem. I am saying you need 
to address those problems, but also don't be limited to them. 
Really look at what needs to be done and address all of them.
    Mr. Clay. Thank you.
    Ms. Nash. I am particularly worried about the 2020 election 
in November, and actually that is one of the things that is the 
issue of this particular hearing, and, you know, measures that 
are necessary in order to make that a real election and a fair 
one, and with the Senate not considering the important bills 
that this this body has passed. I don't want you to let them do 
that.
    Mr. Clay. Thank you.
    Ms. Nash. If anyone is interested, I would be happy to 
share some of our tactics with this----
    Mr. Clay. And I thank you for your response.
    Ms. Nash. Some of our tactics with the Civil Rights----
    Mr. Clay. I sure would like you to share. Thank you, and I 
yield back. I am sorry.
    Chairwoman Maloney. Thank you so much. I want to thank all 
of my colleagues for being here. I believe this is a 
historically important hearing. I am humbled to have so many 
incredible leaders from the Civil Rights Movement, and that 
includes our friend and colleague, Eleanor Holmes Norton. But 
Mother Nash, you are a heroine to many, many people in our 
country. I wanted to share with you that not only have we 
passed important legislation on voting rights, but we passed a 
bill to create the first and only women's museum in the country 
dedicated to the contributions, meaningful contributions, of 
women like yourself, so that our young girls and boys can learn 
and be inspired by your work. I am honored to have you here in 
our in our room.
    And thank you so much, Ms. Johnson. You are making history 
right now with your important court decisions. You have 
mentioned many of them today in your testimony, and, Mr. 
Jenkins, your historic and current leadership. I am going to 
put in a bill based on what you said today. Civics is being 
removed from the curriculum of our public schools. That is 
wrong. Everyone should study the struggles that we went through 
to win the right to vote and the civic responsibility that we 
all have to vote.
    And I want to return to what I said in my opening remarks, 
which we heard again so powerfully from our witnesses. And that 
is that history is repeating itself, and in more sophisticated, 
complicated, and more difficult challenges with the Citizens 
United decision, and with the voter suppression tactics that we 
are hearing that have been updated for today, and that some 
states still are trying to put new barriers to voting. And 
though the House passed critical legislation, I want to point 
out that Leader Mitch McConnell has not even allowed a debate 
on these important bills on voter rights, much less a vote. And 
we as Americans need to get ready and ensure that we can 
protect and exercise our right to vote in 2020.
    And I want to close in remembering our dear friend, our 
dear colleague, Elijah Cummings, and this was the main vision 
of his mother and of his life's work. We are continuing with 
these hearings in his honor. And I am inviting all of our 
colleagues to come back to this room at four o'clock tomorrow 
because we are going to be naming the first hearing room after 
a Member of Congress in history, in Black History Month. There 
is not one room or facility in the capital named for an African 
American Congress member. We are changing that tomorrow with 
his family. I hope everyone comes back to share this important 
event and honor his memory as we do with this hearing today.
    Again, I am honored to have all of our witnesses. You of 
all the done such an incredible job with your life's work and 
with your testimony today. Thank you. And I now recognize, 
representing the minority, Mr. Grothman.
    Mr. Grothman. Well, thank you for letting us do all the 
talking. I feel like going on for about a half an hour, but I 
know there are so many people back home listening to this 
hearing, and they want a break. So, we will just let you 
adjourn.
    Chairwoman Maloney. OK. Without objection, all members will 
have five legislative days within which to submit additional 
written questions for the witnesses to the chair, which will be 
forwarded to all of the witnesses for their response. I ask our 
witnesses to please respond as promptly as you can.
    This hearing is adjourned.
    [Whereupon, at 1:57 p.m., the hearing was adjourned.]

                                 [all]
</pre></body></html>
